<html>
<title> - AN UPDATE ON THE SCIENCE OF GLOBAL WARMING AND ITS IMPLICATIONS</title>
<body><pre>[Senate Hearing 110-1257]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1257
 
    AN UPDATE ON THE SCIENCE OF GLOBAL WARMING AND ITS IMPLICATIONS

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________
                               
                               
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
     88-902 PDF              WASHINGTON : 2015               
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                           
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                         TUESDAY JULY 22, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     3
Lautenburg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     9
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    85

                               WITNESSES

Burnett, Jason, Private Citizen, Former Associate Deputy 
  Administrator, Environmental Protection Agency.................    10
    Prepared statement...........................................    13
    Responses to additional questions from Senator Cardin........    27
Trenberth, Kevin E., Head, Climate Analysis Section, National 
  Center For Atmospheric Research, Climate And Global Dynamics 
  Division.......................................................    30
    Prepared statement...........................................    32
    Response to an additional question from Senator Boxer........    45
    Response to additional questions from Senator Cardin.........    45
Spencer, Roy W., Principal Research Scientist, Earth System 
  Science Center, University of Alabama, Huntsville..............    50
    Prepared statement...........................................    52
    Response to additional questions from Senator Cardin.........    59


    AN UPDATE ON THE SCIENCE OF GLOBAL WARMING AND ITS IMPLICATIONS

                              ----------                              


                         TUESDAY JULY 22, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    U.S. Senate Tuesday, July 22, 2008 Committee on Environment 
and Public Works, Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Craig, Lautenberg, Cardin, 
Sanders, Klobuchar, Whitehouse, Bond.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. Today's hearing will focus on 
global warming science and its implications. We are going to be 
backed up against an early vote around 11:15, 11:30, so we are 
going to move quickly. And I am going to limit the opening 
statements to whoever shows up before our witnesses start, then 
those who don't can put it in the record.
    Today's hearing, again, is focusing on global warming 
science, its implications. The evidence has been overwhelming 
that global warming poses a serous threat to the American 
people, and that we must act now to prevent devastating 
consequences. In dozens of hearings and briefings in this 
Committee and this room, we have heard presentations from Nobel 
prize-winning scientists of the Intergovernmental Panel on 
Climate Change, the IPCC, we heard repeatedly that global 
warming endangers public health and welfare. We heard that from 
the Bush administration's own CDC.
    The IPCC found that global warming is unequivocal, and that 
most of the recent warming is due to human activity. In North 
America, the IPCC warned of risks to public health, including 
increased frequency and duration of heat waves and heat-related 
illness and death; increased water-borne disease from degraded 
water quality; and increased respiratory disease, including 
asthma and other lung diseases from increased smog. Children 
and the elderly will be especially vulnerable to these impacts.
    It is interesting, the recent document we received from the 
EPA basically said all that, right out there, and showed the 
enormous impact global warming will have all across our 
Country. In the U.S., there will be reduced snow pack in the 
western mountains, critically reducing access to water. There 
will be prolonged droughts and insect invasions that will kill 
crops and damage forests, leaving them more susceptible to 
fire. I want to say to my colleagues, we are having a taste in 
California of fires that are caused by what they call dry 
lightning. At one point we had more than a thousand fires 
burning.
    Coastal communities and habitats will be battered by 
intensified storms. Leading scientists every week sound the 
warning. Let's look at a few headlines over the last several 
weeks: ``Warming West is Ground Zero for Wildfires;'' 
``Wetlands Could Unleash Carbon Bombs;'' ``Climate Change May 
Muddy Better-than-Bottled New York Tap Water;'' ``Global 
Warming Depletes Great Lakes Even More.''
    We are fortunate to be joined today by an IPCC scientist 
who will share some of the latest information with us on the 
dangers posed by global warming. I would also like to place in 
the record a statement from Dr. Pachauri, chairman of the IPCC, 
whom I have met with and who graciously briefed colleagues on 
both sides of the aisle months ago.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Despite the scientific consensus, despite 
the danger, the Bush administration has failed to take any 
meaningful action. In fact, rather than addressing the problem, 
recent investigations by the press and congressional committees 
have documented an effort by the White House and the Office of 
the VP to cover up the threat posed by global warming. We know 
they have censored documents including CDC testimony, they have 
muzzled scientists. They have ignored unanimous recommendations 
from agency experts to act.
    The Bush administration's actions threaten the health and 
welfare of the American people, but it is true that their lack 
of action benefits a narrow group of special interests. 
Nevertheless, we have the tools to begin to act now. The 
Supreme Court Massachusetts v. EPA, decided last April, made 
absolutely clear that our Clean Air Act applies to global 
warming emissions. Unfortunately, the Bush administration has 
defied the Supreme Court's ruling and has pushed off action. In 
our hearing today, we will hear more about how that happened.
    Not only has the Bush administration itself failed to act, 
but they are blocking the actions of States like California, 
and as many as 19 other States that are waiting to follow suit. 
To me, it is one thing to say, I am in charge and we are not 
doing one thing about global warming, despite the laws, despite 
everything else. It is another thing to stop the States who 
want to play a role in solving this problem.
    So I am committed to continuing to press for action at the 
earliest opportunity. We won't let up in this Committee. We 
cannot afford to. We have the opportunity to solve the problem, 
it lies in the Clean Air Act, it lies in legislation we should 
be able to agree to across parties. We are going to solve the 
problem, it is a question of when, and it is going to be soon. 
I look forward to hearing from the witnesses today.
    With that, I will call on Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair. Thank you 
for holding this hearing today on regulating carbon dioxide.
    I am sure we will be treated to many breathless statements, 
questions and answers about who said what and when regarding 
EPA's plans to regulate carbon dioxide. But while that is going 
on, I hope those who may be listening and those who are here 
will remember these remarks about what really is going on here. 
You might have thought that I would launch into a statement of 
condemnation about the naked political goals of this hearing. 
That certainly is the case.
    But something even more important is at stake with this 
issue. It threatens every family, every worker, every farmer, 
and every driver in this Nation. Each of these groups are 
already suffering. Families are struggling with record high gas 
prices. This summer will bring high power bills to pay for air 
conditioning. We are hearing that families will pay high 
heating bills this winter. Workers are suffering as their good-
paying manufacturing jobs are going overseas to countries with 
cheaper energy. Huge segments of the American economy are 
shutting down and going abroad. Fertilizers, plastics and 
chemical operations are all fleeing America's high prices for 
places like Asia and the Middle East.
    I might add that they are going to countries with weaker 
environmental laws and will pollute more and certainly not 
control for carbon dioxide or energy efficiency. And I would 
share the goal with the Chair that we are going to reduce 
carbon. We are going to promote energy efficiency. We have a 
wide range of actions that we may take to get things done in a 
responsible manner.
    But what is the real threat to the people of America? That 
threat is even higher energy prices and more lost jobs. On top 
of record gas prices, even higher prices for gas, on top of 
higher power bills, even higher prices for power, on top of 
lost manufacturing jobs, even more jobs lost.
    Just last month, advocates attempted to push through 
Congress a plan to oppose a $6.7 trillion, that is trillion 
with a T, $6.7 trillion in high energy costs. Those energy 
costs resulting from a price on carbon would be passed on to 
American families and workers. Additionally, a carbon cap bill 
would increase gas prices by $1.40 per gallon. That would be on 
top of our record high prices.
    My constituents are already fed up with $4.00 gasoline. 
There is no way I can convince them to pay $5.50 or more a 
gallon for gasoline. There is no way that they should. Some 
have said it just went up too quickly. Well, I disagree: it 
just went up too high.
    But that would be the unavoidable result of impossible 
carbon reduction targets set to levels and on time lines that 
technology cannot meet. Without provisions to control costs as 
well as carbon, the American people will face sky-high energy 
costs and lost jobs.
    Now we have the advocates back. They could not impose their 
plans through the Senate floor. Today we will examine why they 
could not impose their plans through Federal regulation. The 
tools may be different, existing legislation instead of new 
legislation; command and control regulation instead of cap and 
trade. But no doubt, the results would be the same, pain and 
suffering for the American people already suffering the pain of 
high energy prices.
    And for those under new Clean Air Act carbon regulations, 
it would be a complete disaster. The Clean Air Act was never 
intended to regulate carbon dioxide. Congressman John Dingle 
wrote the Clean Air Act. He said he never intended it to cover 
carbon dioxide. It was a law rightfully intended to reduce 
pollution from major sources such as power plants, refineries 
and chemical plants. And I was a co-sponsor of the Bond-Byrd 
Acid Trading Compromise that helped pass the Clean Air Act.
    But now, this law is being applied to suck in tens of 
thousands of small businesses, farms, commercial buildings, 
hospitals and schools. They would be forced to spend tens of 
thousands of dollars each to submit cumbersome and complicated 
air permits to the States and EPA, and that regulatory 
nightmare would be accompanied by a litigation nightmare as 
dozens of questions and legal issues will be litigated in the 
courts.
    Now, that may be the agenda of some, but it is not my 
agenda. It is not the agenda of the people of Missouri. I am 
very glad that the Administrator had the good, adult judgment 
and the courage to stop, take a breath and ask what in the 
world we are getting ourselves into. We saw the Senate wanted 
no part of what we would get into; I am confident the American 
people feel the same.
    Senator Boxer. This hearing is about not refighting the 
Global Warming Bill, the Boxer-Lieberman-Warner, but since you 
brought it up, I want to make a point. You misspoke on it, I am 
sure you believe what you said. But the fact is, the vast 
majority of the funds coming in, which would come from the cap 
and trade system, goes directly to consumers to make sure that 
they are helped during the energy transition. Then once we get 
the alternatives, which a lot of other funds are used for, to 
develop those alternatives, prices will actually go down and 
others.
    So there is a large chunk of that $6 trillion that goes to 
researching alternative energies and encouraging those. A lot 
of funds go to the States for that. And then the last traunch 
of big dollars goes to deficit reduction. My friend may have 
noticed that we have a real deficit problem.
    So that is what our bill did. We 54 Senators expressed 
themselves, 48 on the floor of the Senate, 6 with letters to us 
saying they were for moving this bill forward. Today we are 
looking at the science.
    The other point I want to make about gas prices is, I so 
agree with my friend on this. That is why our leader is 
bringing to the floor and anti-speculation bill. Because 
experts have told us that some people think that as high as 45 
percent of the price for a barrel of oil has to do with people 
speculating in the futures market. I really look forward to 
taking that bill up. If our friends want to offer an amendment 
on drilling in moratoria of pristine coastal areas, we have a 
solution to that. We say to the oil companies, you have 68 
million acres, use it or lose it. You have another 28 million 
acres available in the Alaska naval reserve, go for it. We 
believe we need a policy that is not driven by the oil 
companies but is driven by what is right.
    And my friend says that Mr. Johnson has the courage, had 
the courage to say let's take a deep breath, he has been taking 
a deep breath for many years now on global warming. We are the 
last person at the party to understand this as an issue, 
whether you look at our allies around the world or you look at 
our States that are doing so much already.
    Senator Bond. Madam Chair, may I respond?
    Senator Boxer. Yes, you may.
    Senator Bond. I thank the Chair. I am sorry I am not going 
to be able to continue this discussion. I would note that under 
the Warner-Lieberman bill, $6.7 trillion would be taken away 
from workers in America, only $900 million would come back in 
tax relief.
    I would point out that speculation driving up the price is 
not just speculators on Wall Street. I saw last week that 
CalPERS, the California Public Employees Retirement System, had 
invested billions of dollars in the high future cost of energy. 
The reason they bet on energy going up, as long as we keep all 
of the land that potentially has oil and gas out of production 
and 97 percent of offshore, 94 percent of Federal lands are out 
of production, then that gas price will go up. So we will look 
forward to discussing this further.
    Senator Boxer. Yes, and I totally, let the record show, 
those numbers make no sense at all to me. So we will get in the 
record our response to Senator Bond, and again, his 
misstatement of taking money away from America's workers. That 
is really extraordinary.
    So we are going to go forward now and we are going to turn 
to Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for the 
leadership on so many issues that we face here and your 
unwillingness to let casual dismissal of reality take place. I 
compliment you for that.
    When we look at the world out in front of us, I have to 
tell you that while high prices for gas and the resultant 
services, heat and light, is drowning our society, to use the 
expression, the fact is that ahead of that concern is whether 
or not our children are able to grow up healthfully. That to me 
is the principal mission that we have here. Yes, we have to 
keep it in some kind of financial order, absolutely. And my 
heart breaks for those who are dependent on gasoline for 
commuting or for getting kids to school and mom to the doctors 
and so forth. It is awful, and we ought to take care of that. 
Energy has to be more available from renewable sources.
    But if the first thing we start with is costs that are 
developed with a skew to them, that we become dissuaded from 
doing the best we can for the health of our families, then we 
are on terribly different wavelengths here. Floods have turned 
some of Iowa's fields and roads into rivers. Fire has turned 
California's mountains to black ash. And heat waves have killed 
tens of thousands of people in Europe. These disasters will 
only become more common as we feel the effects of global 
warming.
    And as a result of global warming, drastic changes in our 
climate and the dramatic events that they cause are on the 
rise. Several weeks ago, EPA scientists mapped out the 
consequences of the threat posed by global warming. I point to 
it, it is a fairly concise, I think very dramatic presentation 
of what the effects are of global warming, distributed 
regionally. I note with interest that even a place like Texas, 
Oklahoma, Arkansas, Louisiana, will have degraded air quality, 
urban heat islands, wildfires, and it goes on. Heat waves, 
drought, tropical storms, extra rainfall with flooding, and 
wherever they have water boundaries, sea levels rising.
    The chart spells out very clearly the increased risk to 
each region of our Country as a result of global warming. This 
is done by scientists at EPA. We are not talking about minor 
shifts in the weather. We are talking about heat waves. We are 
talking about drought, fire and flooding. Major threats to our 
Country and our world. Even with more storms and the 
possibility of more destruction, some of our colleagues are 
still arguing that global warming is a farce. And even among 
those who agree that global warming is a fact, some argue, we 
have heard it, that taking action is too expensive. These 
arguments are not acceptable in my family, and as a 
consequence, it is not acceptable in any family.
    When we have bad air days, whatever the cause may be, my 
grandson is watched so carefully by my daughter. He is 14 years 
old. When he starts to wheeze, her knees start to shake. It 
happens more frequently all the time. And I want everybody's 
children to be free of that kind of threat.
    These arguments are not acceptable. Fighting global warming 
is not a choice, it is a necessity. It is the single greatest 
environmental threat to our planet. And our children cannot 
afford a failure for us to act promptly, boldly and decisively. 
Yet the Bush administration has had 8 years to show the kind of 
leadership that takes that kind of action. And for 8 years, 
they have sat on their hands. The Administration denied 15 
States, including my State of New Jersey, the right to cut 
greenhouse gases, wanted to preempt our rules and regulation, 
the right to cut greenhouse gas emissions from cars, trucks and 
buses.
    Last year, the Supreme Court ruled that EPA must consider 
regulating greenhouse gas emissions to fight global warming. 
EPA was moving in the right direction to start the process of 
regulating these gases. But ExxonMobil and other big oil 
companies pushed back, and instead of siding with our children, 
the Bush administration chose to side with big oil, decided not 
to fight global warming.
    Madam Chairman, I appreciate the fact that I have run over. 
It seems to be--OK. Wrapping up, I commend you for your 
leadership on this issue, so critical when we have a White 
House that undermines our efforts at every turn.
    Senator Boxer. I usually am much more generous, but we do 
have a vote in there. So, Senator Craig, if everyone could 
stick to the 5-minutes, preferably 4 minutes and 30 seconds. Go 
ahead.
    Senator Craig. Frank has used my five, I will yield, thank 
you.
    Senator Boxer. All right. Senator Cardin.
    

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, first let me comment very 
briefly on the exchange between you and Senator Bond. There is 
a lot of frustration, not only among the members of the U.S. 
Senate, but among the people of this Country.
    And it is because of the failure of our Country to have an 
energy policy. We haven't had an energy policy. We have seen 
during this term of Congress the consequences. We saw that in 
the fact that we are not secure, we need to commit our military 
internationally because of the need for imported oil. We have 
seen that in regard to the large increase in the cost of 
energy, not only with the use of our automobiles and gasoline, 
but utility bills in our homes have caused extreme hardship due 
to the large increase in cost.
    And we see it in our environment. And I thank you for 
having this hearing. I think we have a common answer to all 
three of the problems, and that is legislation that will get us 
off of oil and develop alternative fuels that are going to be 
friendly toward our environment and dealing with conservation 
in a way that we use energy more efficiently. All that will 
help us solve all three of the consequences of our current 
failure to have an energy policy.
    So I thank you for holding this hearing so we can take a 
look at the continued evidence of the impact of global climate 
change. To me, it has been clear that it has affected not just 
our environment, and Madam Chair, you know of my interest in 
the ecosystems, like the Chesapeake Bay and the impact that 
global climate change is having on that national resource. On 
our human welfare, we see that with the rising sea level and 
the effect it is having on those near our waters, but also the 
impact of extreme weather, the impact on agriculture. And I 
could go on and on and on.
    That is why I particularly appreciate this hearing, because 
we will be getting an update on the good scientific information 
which I think we need to base our decisions, on good science, 
on what will make sense. And yes, the Lieberman-Warner bill, 
which I am a proud co-sponsor of and believe it is an extremely 
important bill to get done, will allow us to take the necessary 
steps to deal with the consequences of global climate change 
and be an international leader. But we want to make sure we 
have good science information, good technical information.
    One of the things that I would urge, Madam Chair, that as 
we go through this process, let's make sure we have a robust 
provision that will allow us to continue to get the best 
scientific information to be able to monitor our actions to 
make sure that we not only pass the best legislation on the 
science available, but that we have also the collection of 
information continuing to make sure we make the necessary 
adjustments, that we achieve the objectives we set out to do.
    We all know about corn ethanol and the consequences of that 
decision, it was not exactly as we intended when we first went 
forward with that proposal. So I hope as part of the hearing 
process that we are going forward with that we will incorporate 
in legislation that we ultimately pass the type of support for 
the people that are witnesses today to be able to make 
available not only to us but to the American people the 
information necessary to make sure we achieve the objectives 
that will be good not only for our environment but good for our 
economy and good for our national security.
    Thank you, Madam Chair.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madame Chairman, thank you.
    Over the last year we have heard testimony from a number of 
individuals on the State of the global climate system, the 
projections on how the climate system is changing, and the 
likely impacts these changes will have on health and human 
welfare, agriculture, transportation systems, and important 
ecosystems like the Chesapeake Bay. Much of the testimony has 
been informed by the latest, peer-reviewed science and 
represents a consensus of the scientific community on the 
nature of the climate system's warming, the causes for that 
warming, and the degree to which this warming will continue.
    We know that a significant contribution to climate change 
comes from our burning carbon-based fuels. We also know that 
climate change is not only manifest as an increase in the 
globally averaged temperature, but that climate change will 
likely be manifest by increasing variability in weather and 
will be experienced as non-uniform changes around the globe. 
Some areas will warm more rapidly than others, some will be 
wetter, others considerably drier. The projected increase in 
the risk of significant rains over a short period of time means 
that flooding risks will also increase. In Baltimore, the EPA 
projects that a three degree Fahrenheit overall air temperature 
increase in air temperature could increase the heat-related 
death toll by 50 percent from 85 to 130 people annually.
    Climate change will likely have an impact on our Nation's 
treasure, the Chesapeake Bay. Possible impacts for the 
Chesapeake include increased sea-levels, lower dissolved oxygen 
levels, more precipitation, and changes in various species' 
abundance and migration patterns. Many species will deal with 
the interaction of several climate change effects, which could 
impact their ability to survive in the Bay region.
    It is not only wildlife that are threatened by climate 
change--the EPA has found that increasing greenhouse gas 
concentrations poses a threat to human health due to a number 
of factors including more deaths attributed to heat and the 
increase in vector-borne diseases.
    The research upon which these findings are based is rooted 
in an extensive, careful analysis of past and present 
observations of the atmosphere and ocean coupled with advanced 
numerical predictive models. As we will see today, there are 
some uncertainties in climate projections, however scientists 
are continually decreasing these uncertainties as more 
observational data is analyzed and the numerical models the 
scientists use are improved. What is important, is that we 
recognize the magnitude of these uncertainties and determine 
whether these uncertainties are relevant to our understanding 
of climate change impacts. Enhanced monitoring and analysis of 
climate data will help with this effort.
    Unfortunately, over the last several years, there has been 
a degradation of our Nation's climate monitoring capabilities.
    There have been funding cuts in NASA's and NOAA's 
capabilities to monitor the Earth's climate system--
particularly satellite platforms. Our historical record of 
climate data at fixed locations is gradually being eroded as 
budget constraints force the re-sighting or elimination of 
observational platforms.
    A suite of observations ranging from surface-based 
measurements to satellites are required to assess the State of 
Earth's climate systems so that we cannot only reduce 
uncertainties in our climate projections, but also enhance our 
abilities to better to understand what will be necessary to 
mitigate and adapt to changing conditions.
    These observations are not only vital to our understanding 
of climatic changes decades out, but are also important for 
much shorter-term needs including daily weather prediction and 
the associated issuance of timely warnings to protect lives and 
property. As I noted earlier, climate scientists project that 
climate changes will be potentially associated with increasing 
variability in weather, including perhaps more high-impact 
weather events like stronger hurricanes and heat waves. An 
enhanced global environmental monitoring system is essential 
for us to provide the information necessary for emergency 
managers and longer-term decisionmakers to deal with the 
impacts of these phenomena.
    For these reasons, last month I filed an amendment to S. 
3036 that used the proceeds of auctioned allowances to fund 
climate science monitoring, research, and operations. The 
amendment provided funds to upgrade and maintain an effective 
observing system to monitor the State of the global climate 
including the atmosphere and oceans. Additionally, funding was 
made available to ensure that the data provided from these 
observations is put to greatest use in operational weather and 
climate prediction.
    I look forward to hearing from all of today's witnesses and 
learning more about the latest climate science research results 
and what these results suggest about the actions our government 
should be taking to confront this important issue.
    Thank you to Madame Chairman.

    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, for 
holding this important hearing, and to our witnesses for being 
here.
    I started my day yesterday with a 14-year old girl from 
Minneapolis named Liza who rode her bike 1,500 miles across the 
Country with a group of petitions signed by 1,200 kids from 
across the Country asking for more research and technology and 
encouragement of fuel-efficient vehicles, specifically electric 
and hybrid cars. She came up with this idea in April, got a 
bike, she got her family to follow behind her in a car, and she 
did this all by herself. It made me think once again how about 
a lot of times the kids are leading the way on this and trying 
to push some of the people here in Washington to get something 
done.
    I can tell you that in our State of Minnesota we believe in 
science. I have often told my fellow Committee members here 
that we brought the world everything from the pacemaker to the 
post-it note. We are the home of the Mayo Clinic. That is why, 
Dr. Trenberth, I am specifically interested in some of your 
testimony about the science, about the heavy rainfalls and what 
some of the warming, the increased levels of warm, moist air 
coming out of the Gulf of Mexico are doing to the environment.
    I have been surprised, not at just kids on bicycles, but at 
the number of adults that have brought up the issue of climate 
change to me after we had the flooding in southern Minnesota 
and in Iowa, we have had an increase in tornadoes. Again, they 
know that it may not just be due to climate change, or it may 
not be because of climate change. But they want to know the 
facts. And it is starting to get into their heads that this may 
have something to do with what is going on, storms that maybe 
were once every 500 years suddenly seem that they are happening 
2 years in a row.
    The second reason I am so interested in this is just as a 
former prosecutor, I have always believed in evidence. And it 
appears that the Administration, Mr. Burnett, has been living 
in an evidence-free zone. I have just been interested in 
following the stories about your e-mails and how they have been 
somehow contained, about the lengths that have been taken by 
the Administration to squash any kind of an endangerment 
finding.
    It seems to me that what keeps happening is that when they 
don't like the answer, they try to squash the science. We had 
this happen when the head of the Centers for Disease Control 
testified, and her testimony seemed rather limited and stilted. 
Then it turned out a whistleblower came out and gave us the 
right testimony, and here it had been redacted. One of the most 
interesting facts and one of the things redacted was that 
climate change, while it wouldn't cause wildfires, could lead 
to increased and more vociferous wildfires on the Pacific 
Coast. And the same week it was redacted was when the wildfires 
were raging in California a year ago, and of course, we have 
had that happen again.
    But it just seems like time and time again, in closing, 
what we have heard of what happened with you, Mr. Burnett, they 
don't like the answer, so they squash the science. They don't 
like the answer about the wildfires, they squash the testimony. 
They don't like the answer about what is in your e-mails, they 
squash the e-mails. I think the American people and that little 
14-year old girl are really owed an answer here, and that is 
what I hope we will hear from this hearing.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you, Senator Klobuchar.
    Senator Whitehouse.
    Senator Whitehouse. Well, I can't top Liza, and I would 
like to get to the witnesses, so I will withhold any opening 
statement.
    Senator Boxer. Thank you.
    Senator Lautenberg. Madam Chairman, I want the record to 
reflect that the time that I took, 55 seconds, it was nice of 
Larry to sacrifice all of his time.
    Senator Craig. Thank you, Frank.
    [Laughter.]
    Senator Boxer. Let me say this. Because this is an 
oversight investigation, where we will be doing fact-finding, 
we will be swearing in all of our witnesses today. Therefore, 
please stand, raise your right hand and take the following 
oath.
    Do you solemnly swear that the testimony you are about to 
give will be the truth, the whole truth and nothing but the 
truth, so help you, God?
    [Witnesses respond in the affirmative.]
    Senator Boxer. Let the record reflect that everyone said, I 
do.
    We will begin with Mr. Burnett. We are going to try to hold 
you to 5 minutes, because I know there are many, many 
questions. Let me introduce to everybody who we have here.
    Jason Burnett, private citizen, former Associate Deputy 
Administrator, U.S. Environmental Protection Agency. We have 
then Dr. Kevin E. Trenberth, head of the Climate Analysis 
Section, National Center for Atmospheric Research, Climate and 
Global Dynamics Division; and Dr. Roy Spencer, Principal 
Research Scientist, Earth Systems Science Center, University of 
Alabama in Huntsville.
    We will begin with you, Mr. Burnett.

 STATEMENT OF JASON BURNETT, PRIVATE CITIZEN, FORMER ASSOCIATE 
     DEPUTY ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Burnett. Madam Chairman, Senator Craig, members of the 
Committee, thank you for the opportunity to testify on the 
science of climate change and its implications. My name is 
Jason Burnett, I recently resigned my position as Associate 
Deputy Administrator of the Environmental Protection Agency, 
where I helped lead the effort to respond to the Massachusetts 
v. EPA Supreme Court decision and to help design the resulting 
greenhouse gas regulations.
    I am appearing before this Committee as a private citizen 
and my opinions for how the Country should respond to climate 
change are mine alone. The scientific information I present, 
however, is not my opinion. It is the conclusion of peer-
reviewed reports produced or endorsed by the U.S. Government. 
As the saying goes, you are entitled to your own opinion, but 
not your own facts.
    A central point I would like to make this morning: we can 
and must do a better job of differentiating between the facts 
of a problem and the opinions about how to address the problem.
    The first question in the climate debate is primarily in 
the realm of science: what is the nature and extent of the 
problem. The U.S. Government relies on a wealth of information 
produced by thousands of scientists resulting in reports by 
dozens of Government authors and reviewers. The second question 
is primarily one of policy judgment: what should be done to 
address the problem, given the scientific assessment. 
Ultimately, this is the charge of our elected officials and the 
people they appoint to administer our laws.
    Both the process of scientific inquiry and the policy 
process have uncertainties and legitimate differences of 
opinion. But we should not allow the desire for a particular 
policy outcome to cloud our assessment or presentation of the 
problem at hand. In this regard, I feel I made a key 
contribution in the climate change debate in helping the 
Government draw a clear line between science and policy. As 
recent news reports have suggested, this assignment was not 
always easy in this Administration.
    What we should expect from our Government is a fair and 
honest presentation of the facts, and then have a public debate 
about what solutions to offer, given those facts. Allow me to 
set the stage. The April 2d, 2007 Massachusetts v. EPA Supreme 
Court decision fundamentally, profoundly and permanently 
changed the regulatory landscape by finding that greenhouse 
gases are air pollutants within the Clean Air Act. Under that 
decision, EPA must determine if greenhouse gases endanger the 
public. And if so, EPA must regulate emissions from cars and 
trucks if those emissions contribute to the problem. The law is 
straightforward. If the public is endangered, the Government 
must act.
    In June 2007, EPA Administrator Steve Johnson asked if I 
would return to the agency to help him lead the effort to 
respond to the Supreme Court decision and develop the first 
Federal greenhouse gas regulations. Having left EPA less than a 
year before caused me to be cautious and view with skepticism 
any suggestion that the Administration had decided to take 
regulatory action. However, it was a unique opportunity to help 
with a profound policy challenge. I accepted the invitation.
    The initial matter before EPA was how to make an 
endangerment finding. Working with other expert agencies across 
the Government, EPA produced a science assessment to inform 
that finding. These are among the key conclusions of that 
assessment. Climate warming may increase the possibility of 
large, abrupt and unwelcome regional or global climactic events 
such as the disintegration of the Greenland ice sheet or 
collapse of the west Antarctic ice sheet. Severe heat waves are 
projected to intensify in magnitude and duration over portions 
of the U.S. where these events already occur, with likely 
increases in mortality and morbidity, especially among the 
elderly, the young and the frail.
    To be balanced, I will add that climate change is also 
projected to bring some benefits, such as fewer deaths from 
cold exposure. To my knowledge, EPA successfully defended any 
efforts to delete sections of this assessment, which was made 
public as a sixth order draft earlier this month.
    The science is clear on this point. The U.S. will 
experience serious human health and Environmental consequences 
from climate change. The science assessment provided the 
support for answering the Supreme Court and making it an 
endangerment finding. Given the profound consequences of such a 
finding, we worked to ensure that we had agreement across the 
Federal Government.
    Senator Boxer. I will give you, and each of you, two more 
minutes.
    Go ahead.
    Mr. Burnett. Thank you, Senator.
    Policy process culminated in a Cabinet level meeting in 
November 2007, where agreement was reached that greenhouse 
gases did endanger the public and therefore, require 
regulation. The Administration also accepted that a finding of 
endangerment would have deep consequences and the initial 
decisions for how to apply the Clean Air Act would set the 
stage for years to come.
    Lacking a desire to implement the existing law, the 
Administration left the important decisions about how best to 
move forward to the next Administration and the next Congress. 
In the end, the only way to avoid making a positive 
endangerment finding was to avoid making any finding at all. 
That is what this Administration has decided to do. Intent on 
not using the Clean Air Act, the White House could only find a 
way to delay its use.
    That should signal everyone that it is simply a matter of 
time before a positive endangerment finding is made, and 
regulation under the Clean Air Act is triggered. That is, 
unless Congress passes a new, better law.
    In closing, I think that we are at the end of the debate 
about whether greenhouse gases endanger the public. They 
clearly do so. I look forward to the next phase of the debate 
about how we should respond. There are no easy answers, and a 
serious response will require hard work, compromise and 
sacrifice.
    Thank you for the opportunity to testify, and I ask that my 
written testimony be submitted for the record. I will be happy 
to answer any questions. Thank you.
    [The prepared statement of Mr. Burnett follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    
    Senator Boxer. Thank you very much, Mr. Burnett.
    Dr. Trenberth, you will be given 7 minutes. Go ahead.

    STATEMENT OF KEVIN E. TRENBERTH, HEAD, CLIMATE ANALYSIS 
SECTION, NATIONAL CENTER FOR ATMOSPHERIC RESEARCH, CLIMATE AND 
                    GLOBAL DYNAMICS DIVISION

    Dr. Trenberth. Good morning, Madam Chair, distinguished 
members of the Committee.
    I am pleased to appear before you today to provide an 
update on climate change. My name is Kevin Trenberth. I was the 
coordinating lead author of Chapter 3 of the Fourth Assessment 
Report of the IPCC, the same body that received the Nobel Peace 
Prize in 2007 with Al Gore.
    I am happy to answer any questions you have about the IPCC, 
but I will simply note that it is a very open and thorough 
process, and it is inherently conservative in its findings 
because of the nature of the process. My main message today is 
that climate change from human influences is a real problem 
today. And it could have major consequences beyond those 
already seen. In fact, rather than slowing down, the problem is 
accelerating.
    Carbon dioxide emissions are increasing and raise the 
specter of future climate changes that could be much larger and 
come much sooner than the IPCC suggests. The problem is that 
carbon dioxide has a long lifetime in the atmosphere, so it 
builds up, and it presently is 36 percent above pre-industrial 
levels. Half of that increase has occurred since 1970.
    The climate system, especially the oceans and the land ice, 
the major glaciers, has a lot of inertia. It responds slowly. 
So with what we have already done to now, we are guaranteed to 
have at least another degree Fahrenheit warming in the global 
mean temperatures. Also, there is inertia in the 
infrastructure, so that even if we take actions now, we will 
have more warming in the pipeline. This means that long lead 
times are essential for actions to address climate change, 
something which is not widely appreciated by the general 
public.
    In my written testimony, I outlined the evidence for global 
warming with several updates on post-IPCC developments, and I 
would like to run through some of those right now. To 
paraphrase the IPCC report, warming of the climate system is 
unequivocal, and it is very likely due to human activities. 
This word unequivocal was passed by all of the governments that 
were present, including the U.S., in the Paris meeting.
    Also, the observed changes in recent decades are reproduced 
in climate models and are projected to increase in the future 
with substantial impacts. Nature continues to provide evidence 
that it is under duress, and the impacts are affecting people 
and animals.
    My interpretation of the recent events is in the context of 
the IPCC findings. It includes first, six out of the ten 
warmest years in the contiguous United States have occurred 
since 1998. Globally, the past 7 years are among the eight 
warmest on record. Second, the most dramatic climate event 
recently has been the huge loss of Arctic sea ice in 2007. This 
affects permafrost and surrounding areas as well as polar bears 
and other native species.
    Sea level rise I think is the best single indicator of a 
warming planet. It continues at the rate of a foot a century. 
Changes in ocean acidity accompany the buildup in carbon 
dioxide in the atmosphere, with consequences for sea creatures 
and bleaching of corals occurs in association with the warming.
    In the first 6 months of 2008, record heavy rains and 
flooding in Iowa, Ohio and Missouri led to over-topped levees 
that have occurred along the Cedar River in Iowa and in the 
Mississippi. They point to the increases in intensity of rains 
that has been observed around the world, and especially across 
the United States, in association with more water vapor in the 
atmosphere that is a direct consequence of warming.
    The record-breaking numbers of tornadoes and deaths in the 
United States in 2008 probably also has a global warming 
component from the warm, moist air coming in out of the Gulf of 
Mexico into the Midwest.
    Longer dry spells also accompany warming, as the extra heat 
that is available goes into evaporating moisture, drying and 
wilting vegetation. The risk of wildfire increases enormously. 
Wildfires in California earlier this year and again this summer 
are examples of the impacts.
    In 2007, for the first time, two Category Five hurricanes 
made landfall in the Americas. They both were in Central 
America they didn't get much attention in the U.S. as a result. 
Recent devastation in Typhoon Nargis in Myanmar, Burma and also 
the Typhoon Fengshen in the Philippines are signs of lack of 
adequate preparation for the consequences that are already 
going on of global warming.
    In the Atlantic in 2008, in July, Hurricane Bertha has 
broken several records on how early and how far east it formed, 
and it is the longest lasting July hurricane on record. We 
should not be misled by short-term natural climate variations, 
such as the La Nina, the cold sea temperatures that developed 
in the tropical Pacific, that has dominated patterns over this 
past year.
    Global warming is not just a threat for the future, it is 
already happening, and at rates faster than the IPCC projects. 
It is affecting people and ecosystems and public health. Our 
predictions at NCAR, my institution, and in the IPCC, are for 
substantial climate changes into the future, to the point where 
the Earth could become a different planet by 2100.
    I believe there is a crisis of inaction in addressing and 
preparing for climate change. Global warming is happening, as I 
often say in my talks, coming, ready or not.
    I appreciate the opportunity to address the Committee 
concerning the science of global climate change, and I look 
forward to answering any questions you may have today or in the 
future.
    [The prepared statement of Dr. Trenberth follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you, Doctor.
    And now, Dr. Roy Spencer.

  STATEMENT OF ROY W. SPENCER, PRINCIPAL RESEARCH SCIENTIST, 
 EARTH SYSTEM SCIENCE CENTER, UNIVERSITY OF ALABAMA, HUNTSVILLE

    Mr. Spencer. I would like to thank you, Madam Chair, for 
the opportunity to address the Committee.
    There are two issues I want to talk about. First, I would 
like to address the role of the White House in policy-relevant 
research performed by Government employees, which this 
Committee is obviously concerned with today. As a NASA employee 
performing climate change research during the Clinton-Gore 
Administration, I was told what I could and could not say 
during congressional testimony. Since it was well-known that I 
was skeptical of the view that mankind's greenhouse gas 
emissions are mostly responsible for global warming, I just 
assumed that this advice was to help protect Vice President 
Gore's political agenda on the subject.
    But this did not particularly bother me, since I knew that 
as an employee of an executive branch agency, NASA, my boss 
ultimately resided in the White House. To the extent that my 
work had policy relevance, it seemed entirely appropriate to me 
that the privilege of working for NASA included a 
responsibility to abide by direction from my superiors. But 
when I finally did tire of the limits on my interactions with 
Congress and the press, I resigned from NASA in 2001 and 
assumed my present position as a University employee, where I 
have more freedom to speak on climate issues.
    Now, second today and more importantly, I would like to 
present some of the latest scientific research regarding the 
relative roles of mankind and nature in climate change. As you 
might know, there remains considerable uncertainty over just 
how sensitive the climate system is to our greenhouse gas 
emissions. But now we have peer reviewed and published 
evidence, both theoretical and observational, that climate 
sensitivity estimates previously diagnosed from satellite data 
have been too high. The two papers describing that work are 
referenced in my written testimony.
    Furthermore, in recent weeks, I believe we have attained 
what has been called the holy grail of climate Research, which 
is a true measurement of climate sensitivity. We have 
discovered why previous sensitivity estimates have been so high 
and so uncertain. They have been contaminated by natural cloud 
variability. And we have even developed two methods of removing 
that contamination. An analysis of 6 years of our latest and 
most accurate NASA satellite data reveals evidence of very low 
climate sensitivity. When translated into an estimate of future 
global warming, it would be less than 1 degree Celsius by 2100, 
well below the range of the IPCC's estimates of future warming.
    If this new evidence of low climate sensitivity is indeed 
true, it also means, and this is very important, if we have low 
climate sensitivity, that also means that the radiative forcing 
being caused by the CO2 we put into the atmosphere is not 
nearly enough to explain the warming we have seen in the last 
100 years. There must be also some sort of natural warming 
mechanism involved.
    And this is where the IPCC process has failed us. The IPCC 
has been almost totally silent on potential natural 
explanations for global warming. They mention a couple of 
external influences, such as volcanic eruptions and small 
fluctuations in solar output as possible minor players. But 
they have totally ignored the 800 pound gorilla in the room: 
natural internal chaotic fluctuations in the climate system.
    In my written testimony, I show with a simple climate model 
a simple example of how small cloud variations associated with 
two known modes of natural climate variability, the El Nino/La 
Nina phenomenon, and the Pacific decadal oscillation, might 
explain 70 percent of the global average warming in the last 
100 years, as well as its basic character, the warming that was 
experienced until 1940, slight cooling or constant temperatures 
until about the 1970's, and then resumed warming up until 
recently, since the satellite data shows that warming stopped 
about 7 years ago. But as Dr. Trenberth mentioned, short-term 
results are no indication of future potential.
    While these new results that I am talking about are not yet 
published, I did present them in a seminar to about 40 climate 
researchers at the University of Colorado last week, and I 
received no serious objections to my analysis. It seems that 
the IPCC leadership has a history of ignoring natural climate 
variability. I often wonder, what evidence for natural sources 
of warming might have been found if the same amount of money 
and manpower was put to the task as the IPCC has used over the 
years. After all, remember, the IPCC is tasked with dealing 
with the human influence on climate. So they don't have a whole 
lot of motivation for finding possible natural explanations.
    There is a story I would like to relate to you, and I have 
never told it before. In the early days of the IPCC, I was 
visiting the head of the White House's Office of Science and 
Technology Policy, the Director, Dr. Robert Watson, who later 
became the first chairman of the IPCC. He informed me and a 
work associate with me, that since we now had started to 
regulate ozone-depleting substances under the 1987 Montreal 
Protocol, the next goal, in his mind, was to regulate carbon 
dioxide emissions from fossil fuel burning. This was nearly 20 
years ago. There was no mention of the scientific basis for 
that goal.
    So as you can see, from the beginning of the IPCC process, 
it has been guided by desired policy outcomes, not science. I 
believe that most of the scientists involved in the IPCC are 
indeed reputable and honest. But they have been used by 
politicians, bureaucrats and a handful of sympathetic and 
outspoken scientists.
    In conclusion, I am predicting today that the theory that 
mankind is mostly responsible for global warming will slowly 
fade away in the coming years, as will the warming itself. I 
trust you would agree, Madam Chair, that such a result deserves 
to be greeted with relief.
    That concludes my testimony and I would be willing to 
answer any questions.
    [The prepared statement of Mr. Spencer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Boxer. OK, we are going to, before you start my 
time, this is the list of how I am going to call on people. 
After I finish my questions, Senator Craig, then unless there 
is an objection, Senators Lautenberg, Cardin, Klobuchar, 
Whitehouse and Sanders. Is that acceptable to everybody? OK. 
And we are going to give each of us 6 minutes.
    Mr. Spencer, did you quit NASA when Bill Clinton was 
President or George Bush was President?
    Mr. Spencer. I believe when George Bush was President.
    Senator Boxer. I also want to point out that on your own 
blog, you said you never were told you couldn't speak about 
your scientific views. And I think that is really key. Because 
what we have happening now is the scientific views are being 
censored. Last, I guess there is a certain congratulations, 
Rush Limbaugh referred to you as the official climatologist of 
the Rush Limbaugh excellence in broadcasting network.
    Mr. Spencer. Yes, that is a tongue-in-cheek reference.
    Senator Boxer. Right. But I just wanted to point that out 
for people to understand, we know that Mr. Burnett has been 
forthcoming about his problems and where he stands. I just want 
to make sure everybody knows what is really happening.
    Mr. Burnett, one of the things I said in my opening is that 
we need to get started on this. And I said that since the 
President has decided not to, and obviously you confirmed that, 
saying they are just kicking this to the next Administration, 
one way we could get started is if they signed the waiver. That 
is why that waiver decision was so crucial. They are doing 
nothing. The States, almost 19 of them, want to act.
    So I am going to ask you a few questions, mostly yes or 
noes, but I want to get the record clear. Because I am having 
trouble getting everything that was promised to me by Mr. 
Johnson. He promised e-mails, we are getting nothing. And we 
are going to talk about that, colleagues, on Thursday. We may 
have to subpoena these documents.
    But let me ask you, did Administrator Johnson discuss with 
you his plan in December 2007 to inform the White House that he 
wanted to move forward with at least a partial waiver for 
California?
    Mr. Burnett. Yes. We had a two-part plan, if the Clean Air 
Act remained as is, specifically the relevant section of the 
Clean Air Act was not amended by Congress, the plan was to move 
forward with a partial grant of the waiver. However, if 
Congress chose to amend the Clean Air Act, then of course we 
would have to evaluate the new law.
    Senator Boxer. OK. In order to support the plan to grant 
the partial waiver, did Administrator Johnson indicate that the 
compelling and extraordinary conditions needed to meet the test 
to grant California the waiver, and the other States, that test 
had been met?
    Mr. Burnett. As part of the plan to grant a partial waiver, 
certainly it was the case that all three criteria in the Clean 
Air Act would be met, including the criteria that California 
has compelling and extraordinary circumstances.
    Senator Boxer. Did you prepare Administrator Johnson for a 
meeting at the White House on the California waiver, and did he 
communicate to you that he understood there was no reasonable 
defense of a denial of the California waiver, and that a denial 
was likely to lose in the courts?
    Mr. Burnett. First, on the issue of the legal 
vulnerability, I think that materials from our Office of 
General Counsel have stated that it is highly likely a denial 
will lose in court. That was certainly communicated in multiple 
form to Administrator Johnson.
    Senator Boxer. OK. After returning from the White House, 
did Administrator Johnson inform you or were you aware for any 
other reason that the President of the United States had 
asserted the policy position that there should be only one 
emission standard applicable to vehicles, despite the 
requirements of the Clean Air Act?
    Mr. Burnett. Yes. President Bush had made it clear through 
a variety of mechanisms of his policy preference for a single 
standard and an approach that would not be consistent with 
Administrator Johnson granting the waiver. That was made clear 
in a variety of conversations and also was reiterated in the 
statement of Administration policy as part of the debate on the 
Energy Bill.
    Senator Boxer. And just for the record, the Clean Air Act 
has always, well, since I think it is the 1970's said that this 
waiver process should be able to move forward, and that there 
wouldn't be a patchwork but there would be one Federal 
standard. And if California decided to move in a tougher 
direction, that would open the door for other States to follow. 
Is that correct?
    Mr. Burnett. Yes. The basic structure of the Clean Air Act 
is that California alone can design a different system from the 
Federal system, and then other States have a choice of either 
following California or continuing to use the Federal system.
    Senator Boxer. OK. Did Administrator Johnson make it clear 
to you that the Energy Bill and its outcome were a 
consideration in his decision on the waiver?
    Mr. Burnett. The Energy Bill certainly was a consideration. 
It was provided as the policy context, if you will, for the 
denial of the waiver. That policy context was articulated in a 
letter from Administrator Johnson to Governor Schwarzenegger on 
December 19th, 2007.
    Senator Boxer. And it was interesting to me because the 
Supreme Court clearly said, any action by DOT has nothing to do 
with the obligations of the EPA. So when he came before us and 
talked about that, we were very shocked.
    Did the Administrator commission an analysis comparing the 
Energy Bill to the California waiver?
    Mr. Burnett. Yes. As the Energy Bill was moving its way 
through both Houses of Congress, there was a comparison done at 
Administrator Johnson's request of the fuel economy 
requirements of the Energy Bill compared with the effective 
fuel economy requirements of the California program.
    Now, that comparison was difficult to make. And there are a 
number of complications in that comparison. The vehicle fleet 
is different in California. The years of the program are 
different. The California program phases in more quickly than 
the Federal program.
    So we attempted to perform a comparison, but that 
comparison really ultimately was an apples to oranges 
comparison.
    Senator Boxer. OK, my last question, and I am sorry, 
colleagues, for going a little over time here, did you 
recommend that the California waiver be granted, and did you as 
the chief climate advisor to the Administrator inform him that 
the waiver was supported by the law and the facts?
    Mr. Burnett. Yes. California had made, in my mind, a 
convincing case that it met all three criteria as required by 
the Clean Air Act. My advice, my recommendation, as well as the 
advice and recommendation of all other advisors within EPA that 
I am aware of was for Administrator Johnson to grant the waiver 
or at least grant the first few years of the wavier.
    Senator Boxer. Thank you very much.
    Senator Craig.
    Senator Craig. Thank you very much, Madam Chairman.
    Gentlemen, thank you for being with us today.
    Dr. Spencer, let me only make comment and then ask you a 
brief question. Being politically incorrect in today's climate 
change debate is not necessarily popular. It isn't popular 
before this Committee sometimes, it isn't popular in the world 
of public opinion. So as an outsider, if you will, but a 
scientist, on climate change, what does the scientific 
community around climate change think of your findings and your 
expressions?
    Mr. Spencer. I receive really no negative direct input from 
the scientists that are qualified to cast judgment on my 
published Research. It is usually met with silence, which in 
the past I have found usually means that you are making good 
points that people don't want to address, since everybody is 
just silent on the evidence you have put forward.
    Senator Craig. I thank you for that. I have been a fairly 
regular attendee of the climate change conferences around the 
world. I recognize that it is a thriving cottage industry at 
times. Thank you for your observation, and please, continue 
your work. There deserves to be reasonable counterpoint to this 
debate.
    Mr. Spencer. There are more like me out there, Senator.
    Senator Craig. Thank you.
    Dr. Trenberth, you gave passing comment as it relates to 
forest fires and climate change. I am frustrated, because I see 
that as an ingredient of tremendous importance in our Country. 
The skies of my State, Idaho, were filled with smoke this 
weekend, but the smoke wasn't from Idaho. It was from 
California. And we have seen the tremendous episode California 
has already had this year.
    In 1991, a group of scientists met, they just happened to 
meet in Idaho, but they were forestry scientists, both forest 
managers and forest scientists. At that time, in 1991, they 
determined that there were millions of acres of forests in the 
Great Basin West and in the Sierras that were dead and dying. 
As a result, if there was less than any activity in managing 
these forests, they would result in massive wildfires over the 
decades to come.
    Now, of course, because of the tremendous population and 
fuel buildup in our forests, and a slight change in 
temperature, we are seeing the consequences of that. Last 
year's forest fires produced about an equivalent of carbon into 
the atmosphere upwards of 12 million automobiles operating 
annually. Yet very little is said by scientists today as to 
natural emissions of carbon into the atmosphere. And this 
Congress denies the Forest Service an active management role in 
our forests to change the dynamics of forests, even if you 
accept warming as I do, and the consequence of that in the 
lower elevations in the Great Basin West and in the Sierras.
    Why aren't scientists dealing more with the consequences, 
the vegetative consequences? And why aren't they advocating 
active management to reduce fuel loads and therefore reduce 
carbon?
    Dr. Trenberth. Senator, in my own testimony, I actually 
comment on one way of dealing with the increased risk of 
wildfires is indeed to cut down on litter and to try to reduce 
the risk of wildfire. It is something that you do have control 
over.
    There are of course a lot of natural variations. The things 
that have come into play in recent years in the West especially 
is the major drought in 2002 which weakened many of the trees, 
especially the lodgepole pine that has subsequently become 
infested with the bark beetle. And the bark beetle itself is 
affected by, can be affected by climate and can get killed off 
if there is a cold spell when the pupae goes into the tree in 
the beginning of the fall or when it comes out in the spring, 
if the temperatures are below about 10 degrees Fahrenheit. In 
the middle of winter, it can also be killed off with a very 
cold spell of about minus 30 degrees Fahrenheit. In recent 
times, we have not had those. So there is a warming component 
to the infestation that has occurred much more recently 
throughout the West and has increased the risk of wildfire over 
many other regions as well.
    Senator Craig. I appreciate that comment. Lodgepole pine 
are of course a climatic species, and we understand their ebb 
and flow. It is interesting today the fires in California were 
not necessarily in the lodgepole areas. They serve obviously as 
ladders, sometimes, for fire. You are right about bug kill, and 
you are right about the bug itself. It is also possible to 
deter that if you interject the human into the process when you 
recognize it is happening, by taking out those bug kill areas 
so that they don't spread. We are being denied that. I guess 
that is my point, active management can help us.
    Madam Chair, my time is up or nearly up. I thank you, 
Jason, thank you for being with us. I would ask unanimous 
consent that I enter into the record some additional 
information in relation to Jason Burnett.
    Senator Boxer. Without objection.
    [The referenced information follows:]

              Jason K. Burnett and the Packard Foundation

    Son of Nancy Burnett (officer on the board of trustees for 
the David and Lucille Packard foundation) and grandson of David 
and Lucille Packard
    The David and Lucille Packard Foundation is the one of the 
wealthiest in the world.

    2007 Annual Report for the David and Lucille Packard Foundation

    Total Awards amount for 2007--$273,927,605
    Environmental Defense--$1,219,500
    Natural Resources Defense Council--$446,572
    World Wildlife Fund--$3,555,250
    Sierra Club Foundation--$300,000
    Union of Concerned Scientists--$125,000

                Jason K. Burnett Campaign Contributions

    Barack Obama--$5900
    Al Gore--$1000
    EMILY's List--$15000
    Democrat Senatorial Committee--$52,500
    Joseph Lieberman--$2000
    Claire McCaskill--$2100
    Jim Webb--$2100
    Diane Feinstein--$500
    Hilda Solis--$500
    Debbie Stabenow--$1000
    Sheldon Whitehouse--$2100
    Robert Menendez--$2100
    Jon Tester--$2100

    Senator Craig. Thank you.
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Spencer, since you ascribe the problems with changing 
climate to natural causes, is it then suggested that we just 
kind of throw up our hands and wait and let nature take its 
course and put our children in the position of the canaries in 
the coal mine and see if they drop and then decide that the 
weather has really----
    Mr. Spencer. First of all, I am of the strong professional 
opinion that most of the warming is due to nature, rather than 
mankind. I don't see how mankind can't have some influence. 
After all, the presence of trees on the planet changes the 
planet compared to if the trees were not there. It would 
probably be hard for the climate and the earth to not know that 
6 billion people live here.
    But to the extent that we do influence climate, then of 
course, you are into a policy issue. And you have to look at 
how difficult it would be to change what we are doing, business 
as usual. And as I have written before numerous places on this 
subject, the way out of this problem, to the extent there is a 
problem with carbon dioxide emissions, is through technology. 
It is going to take new technology that we don't currently 
have, and you cannot legislative new technology into existence. 
It is created by wealthy societies, wealthy countries, 
countries that have free market economies, that have the excess 
wealth to devote to those new technologies.
    That is where I think the answer would be, to the extent 
that carbon dioxide is a problem.
    Senator Lautenberg. So a poor country like ours would have 
to wait for those wealthy ones to get there?
    Mr. Spencer. Well, we already spend billions of dollars, 
Senator, on new alternative energy Research. I don't know why 
that is never mentioned. Maybe we could spend more, I don't 
know.
    Senator Lautenberg. Thank you very much.
    Mr. Burnett, you said in an interview with the House Select 
Committee on Global Warming that some oil companies, including 
ExxonMobil, told the Administration that moving forward with 
greenhouse gas emission regulations would ``taint President 
Bush's legacy by having on his legacy an increase of 
regulations.'' Have you heard that?
    Mr. Burnett. The basic policy debate within the 
Administration was whether the Administration should move 
forward with the response to a Supreme Court and most within 
the Administration believed that they would be able to better 
set the course for the inevitable regulation by moving forward.
    However, the counter-argument was a concern that moving 
forward would lead to an increase in regulation. We are of 
course, talking about regulation of greenhouse gases.
    Senator Lautenberg. Right.
    Mr. Burnett. And that is not something that this President 
wanted to have associated with him.
    Senator Lautenberg. Right. The oil company's assertion that 
any regulation was unacceptable, even if it was necessary to 
protect the public's health, is that a proper view of what was 
taking place?
    Mr. Burnett. Well, the question was whether we would go 
public with a finding that there was endangerment to human 
health or welfare.
    Senator Lautenberg. Keep it secret as an alternative.
    Mr. Burnett. Whether or not to go public, yes.
    Senator Lautenberg. What is the position of career 
scientists at EPA? What is the position of the career 
scientists there?
    Mr. Burnett. Well, in fact it was the position of the 
Administration that the public is endangered by greenhouse 
gases. We had an extensive policy process within the 
Environmental Protection Agency and across the Federal 
Government that culminated in a Cabinet level meeting where 
there was agreement that the public was in danger. The question 
now is simply when that finding will be made public.
    Senator Lautenberg. Dr. Trenberth, the EPA and other 
scientific agencies put out a report last week showing real 
impacts to the United States from global warming. We have this 
chart on display here, which I am sure you have seen. And if 
not, we will get you a copy, I promise.
    Are the findings of this report consistent with the recent 
findings of the Intergovernmental Panel on Climate Change such 
that there shouldn't be any dispute over the reality of global 
warming and its effects?
    Dr. Trenberth. I haven't read that report in detail. As far 
as I can judge, it was very heavily based upon the IPCC report. 
As a result, it is probably a couple of years out of date. So 
it is quite conservative in that regard.
    Senator Lautenberg. Thank you. Are we approaching a point 
of no return where it will be too late to fully protect our 
people from the impacts of global warming?
    Dr. Trenberth. Global warming consequences are already with 
us. They are certainly going to continue to happen in the 
future. We need to recognize that and therefore plan 
accordingly. I don't think we are doing that, and you can see 
the evidence of that from the devastation that occurred along 
the Mississippi with the floods that overtopped levees through, 
what scientists have recognized for at least 10-15 years, the 
much heavier rains. So what used to be a 500 year flood is now 
a 30-year flood.
    Senator Lautenberg. Thank you very much.
    Senator Boxer. Senator Lautenberg, thank you so much for 
that.
    Senator Cardin. I am going to run out for 1 minute, be 
right back.
    Senator Cardin. Thank you, Madam Chair.
    Mr. Burnett, let me followup on this, if I might. Because I 
am reading from your testimony and from your statements here 
today in which you underscore, given the profound consequences 
of making an endangerment finding, we worked to ensure that we 
had agreement across the Federal Government. Your written 
statement then goes through some of the potential alternatives 
to making an endangerment, some theories that could be used, 
including actions already taken. And you come to the conclusion 
that despite these various theories, the Administration 
recognized that the only supportable answer to the Supreme 
Court was to find that greenhouse gases endanger the public.
    Then as you pointed out in response to Senator Lautenberg's 
question, the policy process culminated in fa Cabinet level 
meeting in November 2007, where agreement was reached that 
greenhouse gases endanger the public, and therefore, that 
regulation was required, from your statement.
    Were you present at that Cabinet level meeting?
    Mr. Burnett. I was not present at the Cabinet level 
meeting. I was part of the senior team that coordinated the 
interagency process that began in the summer of 2007 and ran 
through in preparation for the Cabinet level meeting. 
Administrator Johnson represented, as the Cabinet level 
official of the EPA, represented the agency at that meeting.
    Senator Cardin. How were you apprised of the finding at the 
Cabinet level meeting? How did you find out about that?
    Mr. Burnett. I had helped prepare the briefing papers for 
members of the Cabinet in preparation for that meeting. And 
Administrator Johnson and Deputy Administrator Marcus Peacock 
returned from that meeting and asked for us to draft a 
regulatory finding that reflected the decisions reached in that 
meeting.
    Now, to be extra cautions and certain that in fact the 
finding that we developed reflected those decisions, I took the 
extra steps of reading portions of that finding to the Office 
of Management and Budget before it was formally submitted. And 
then I checked with the head of the regulatory office of OMB to 
make sure that OMB was ready to receive that findings for 
formal review. Upon reaching agreement that it was ready for 
review, I sent it to OMB. So we took a number of steps to 
ensure that it was not simply EPA, but the entire Federal 
Government that was in agreement with moving forward with a 
finding that the public was endangered.
    Senator Cardin. Do you know who was at the Cabinet meeting?
    Mr. Burnett. I have an understanding from the report back 
from the meeting who was in attendance. And I certainly know 
the agencies and departments and offices of the White House 
that were centrally involved in the policy process throughout 
most of last year. We had meetings three times a week, 
generally at the Old Executive Office Building, hosted by OMB 
and attended by many individuals across the Federal Government.
    Senator Cardin. So you were confident that the Cabinet 
level meeting in November was an agreement that greenhouse 
gases endanger the public and therefore regulation was required 
was reached at that Cabinet level meeting?
    Mr. Burnett. Yes. In fact, Administrator Johnson has said 
he took the extra step of checking with the President's chief 
of staff office and the Deputy Chief of Staff, Joel Kaplan, to 
make sure that in fact that Cabinet level meeting was 
sufficient for Administrator Johnson to announce to staff at 
EPA that a decision had been made and to proceed with work in 
drafting the formal document that found that the public was 
endangered.
    Senator Cardin. And then what happened after that? Why were 
no regulations issued? Why didn't it go forward?
    Mr. Burnett. Well, the series of events over the course of 
December 5th were strange indeed. That morning, I had made sure 
that OMB was ready to receive the finding formally, for formal 
review. I had checked with my colleagues at EPA to make sure 
that there was agreement within EPA that it was ready to be 
sent over. I sent the document over, and we then received a 
phone call requesting that we not send the document. We 
informed the individual that the document had been sent, and we 
were asked to recall the document.
    Senator Cardin. Asked by whom?
    Mr. Burnett. By Deputy Chief of Staff Joel Kaplan, to 
recall the document or send a followup note stating that the 
document had been sent in error. I couldn't do that.
    Senator Cardin. So you were preparing the necessary 
paperwork to make the declaration, you were then asked to 
recall that document?
    Mr. Burnett. Yes, sir.
    Senator Cardin. Then what happened next? Did you recall it?
    Mr. Burnett. No, sir. It represented the culmination of our 
policy process, the response to the Supreme Court and our 
required action under the Clean Air Act. There was then a 
period of waiting while the Energy Bill moved through Congress 
and continued debate through early this year about whether this 
Administration wanted to answer the Supreme Court and release 
the finding, or whether it wanted to allow the next 
Administration to take that action.
    Senator Cardin. So the next thing you know, it was 
basically punted to the next Administration by not making a 
finding?
    Mr. Burnett. Ultimately, what the Administration has 
decided to do is issue an advance notice of proposed 
rulemaking, which is not a regulatory action. It is designed in 
part to solicit public input and in part to make sure that it 
is the next Administration, not this Administration, that makes 
the important decisions about how to move forward with the 
Clean Air Act.
    Senator Cardin. Thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair.
    I apologize for mispronouncing your name, Mr. Burnett. My 
daughter just returned from French camp, and will only speak to 
me in French. So it was in my head.
    The issue that Senator Cardin was raising with you about 
you sending over this e-mail, it was an e-mail, is that 
correct, to the OMB?
    Mr. Burnett. Yes, Senator.
    Senator Klobuchar. And then this Deputy Chief of Staff, 
Joel Kaplan, called you and said, take it back or send a note 
that we didn't send it, is that right?
    Mr. Burnett. To clarify, he called the Administrator and 
the Administrator asked whether I would be able to send a 
follow-up note. Upon explaining that it had not been sent in 
error, there is agreement at EPA that it wouldn't be 
appropriate for me to send such a note.
    Senator Klobuchar. And do you know if someone from the 
White House or if someone told him to not open this? Was there 
someone outside of OMB? Do you know who that person is?
    Mr. Burnett. It is my understanding from conversations with 
individuals at OMB that they were directed not to open the e-
mail, so that the e-mail would not be in receipt, so that OMB 
could say that they had not received a finding of public 
endangerment, and therefore, the public transparency provisions 
of the Clean Air Act and the Executive Order 12866 would not be 
triggered.
    Senator Klobuchar. And do you know who ordered them to not 
open it?
    Mr. Burnett. I do not know, since I was not part of that 
conversation.
    Senator Klobuchar. OK. Mr. Burnett, press accounts say that 
the White House instructed the EPA to change their calculations 
regarding the cost of greenhouse gas emissions to our society. 
Why do you think they wanted to minimize the net benefit to 
society of controlling carbon emissions?
    Mr. Burnett. Well, let me first say that the regulation 
that we were working to develop would have resulted in an 
increase in fuel economy of the Nation's cars and trucks. And 
that would have resulted in a number of benefits besides 
reducing greenhouse gases. Perhaps most importantly for the 
current debate about energy prices, it would have reduced the 
pain at the pump by reducing the quantity of gas that Americans 
need to put in their tanks.
    There was a desire for a less aggressive regulation to be 
put forward by the Department of Transportation, rather than a 
more aggressive regulation that EPA thought, that EPA analysis 
would have been in the benefit of the American people.
    Senator Klobuchar. The New York Times has written that you 
went back and forth in memos to OMB over the definition of 
carbon dioxide molecules. Could you tell me about that debate?
    Mr. Burnett. As I stated previously, there was a robust 
interagency process. I was at almost all of those meetings 
hosted by OMB. A number of questions were raised during that 
process, given the profound ramifications of making an 
endangerment finding, including the definition of various terms 
within the Clean Air Act, such as air pollutant or air 
pollution or what exactly is meant by the cause and contribute 
test of the Clean Air Act.
    All of these terms are important terms, and we wanted to 
make sure that we got it right, not only for the immediate 
regulations for cars and trucks, but also because we believed 
that it would lead to regulations and set the precedent for how 
regulations were developed for a variety of stationary sources.
    Over the course of that discussion, there was quite a bit 
of effort and interest to see whether the Supreme Court case 
itself and regulation of CO2 and other greenhouse gases form 
automobiles could be restricted to just regulation of 
automobiles. How the Clean Air Act works is that after a 
pollutant is a regulated pollutant, controls are required on a 
variety of sources. So there is an interest to determine 
whether we could define CO2 from automobiles as somehow 
different than CO2 from power plants, for example. Clearly 
that----
    Senator Klobuchar. Do you think that is possible?
    Mr. Burnett. Clearly it wasn't supportable.
    Senator Klobuchar. And who was trying to argue for that?
    Mr. Burnett. Well, several individuals were trying to make 
that general case.
    Senator Klobuchar. People within OMB?
    Mr. Burnett. Jeff Rosen, as part of the General Counsel's 
Office at OMB, had raised that question multiple times. And I 
must say that it was sometimes somewhat embarrassing for me to 
return to EPA and ask for my colleagues to explain yet again 
that CO2 is a molecule and there is no scientific way of 
differentiating between CO2 from a car or a power plant.
    Senator Klobuchar. Thank you. That is what I was talking 
about earlier about believing in science. I appreciate what you 
have done to stand up for science. Hopefully in the end we will 
get this done based on science.
    Dr. Trenberth, just a quick question to followup. Of course 
I am very interested in the flooding issue and these enormous 
rainfalls that we have had suddenly in the Midwest. We had them 
last year, we had eight people die in Southern Minnesota, and 
now we have another one where I stood in front of a huge 
stretch of road, yards and yards long that had just collapsed, 
and a man died trying to get a sump pump, the road collapsed 
out from under him because of the water. You talked about the 
fact that 500 year floods are not 30 to 50 year floods. Could 
you just expand on that for 1 minute about what we can expect 
in the future and why this is happening?
    Dr. Trenberth. Over the past century, rains in the U.S. are 
up about 7 percent. But it is not really a linear trend. There 
was a jump around the 1970's, and the rainfall has been running 
on average that much higher. It is mainly east of the Rockies.
    At the same time, the heavy rains, the top 5 percent are up 
14 percent. And the very heavy rains, the top 1 percent are up 
20 percent. The main reason is well understood, and it is 
because there is about 4 percent more water vapor in the 
atmosphere. That is a number which comes directly from about 1 
degree Fahrenheit warming over the planet. So the air can hold 
more water at a rate of about 4 percent for every 1 degree 
Fahrenheit higher air temperature.
    Senator Klobuchar. So the warming causes more water in the 
atmosphere?
    Dr. Trenberth. The weather systems reach out, grab that 
water vapor, concentrate it, dump it down and so the natural 
consequence is heavier rains.
    Senator Klobuchar. Very good for 1 minute. Thank you very 
much.
    Senator Boxer. Thank you, Senator Klobuchar.
    Before I call on Senator Whitehouse, I just was told that 
the Metropolitan Washington area is under a severe weather 
alert, 40 mile per hour winds, lightning and heavy downpours, 
just coincidentally. This has nothing to do with anything, but 
I thought I would throw that out.
    Senator Sanders. Barbara, you arrange these props 
extraordinarily well.
    [Laughter.]
    Senator Boxer. Thank you, sir.
    Go ahead, Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman Boxer.
    Mr. Burnett, were you at the EPA long enough or in a 
position adequate to get a sense of what the routine meetings 
and conversations were between the Administrator and the White 
House?
    Mr. Burnett. My focus was on climate and energy policy. I 
think that I am generally aware of the conversations and the 
policy process related to those issues. I can't say that I am 
personally and substantially familiar with other conversations 
regarding other issues before the agency.
    Senator Whitehouse. Were there routine meetings between the 
Administrator and the White House on the California waiver 
Clean Air Act issue?
    Mr. Burnett. There were a number of meetings that the 
Administrator had, a number of meetings that I and others had.
    Senator Whitehouse. Would you characterize them as routine?
    Mr. Burnett. I don't think that there was, well, this was 
the first vehicle waiver that I was substantially involved 
with. And so I want to be cautious about not suggesting that I 
had experience with other waivers.
    But I was familiar with the general policy process for 
regulations.
    Senator Whitehouse. Were the meetings that we are talking 
about related to the California waiver, the Clean Air Act 
waiver, specific to that? Or were they part of a routine 
schedule that the Administrator had, going to the White House 
on a regular basis and this would be on the agenda, this 
particular time? Or were these meetings that were scheduled 
specifically to address this and not part of a routine, ongoing 
scheduled meeting process?
    Mr. Burnett. Both. There were some meetings that were 
specifically scheduled to talk about the California waiver, and 
other meetings to talk about a range of issues relating 
particularly to climate policy, including the response to the 
Supreme Court and the California waiver.
    Senator Whitehouse. And were there meetings specific to the 
California waiver that you would not characterize as routine, 
that were specifically scheduled for that purpose?
    Mr. Burnett. Well, there were meetings specifically 
scheduled for that purpose, as I said.
    Senator Whitehouse. Not just dropped in as an agenda point 
on a regularly scheduled meeting?
    Mr. Burnett. Yes, meetings that were specific to talk about 
the California waiver. But I am not sure if that means that 
they were routine or not. It certainly was the case that this 
issue of the California waiver received a great deal of 
attention from a number of people throughout the 
Administration.
    Senator Whitehouse. Would it be accurate to say that in 
those meetings Administrator Johnson's contribution was limited 
to an update on the status of the waiver action?
    Mr. Burnett. I--there was an effort that we were engaged in 
and that I was engaged in to make the case that it would be 
appropriate to issue at least a partial grant of the waiver. 
Ultimately, we were not successful in making that case, and 
ultimately the Administrator decided to deny the waiver.
    Senator Whitehouse. From your perspective, did the White 
House understand that the responsibility for addressing and 
making a decision on the waiver rests with the Administrator?
    Mr. Burnett. That is an interesting question that has been 
brought to light in a recent ozone decision, where the 
President reached a different conclusion than the 
Administrator. And the President's policy was ultimately 
followed.
    Senator Whitehouse. In the Clean Air Act waiver, after the 
White House was notified of the proposed decision that you put 
together, did the White House respond to that notice that you 
intended to partially grant the waiver?
    Mr. Burnett. The response was clearly articulating that the 
President had a policy preference for a single standard that 
would be inconsistent with granting the waiver.
    Senator Whitehouse. That was the response from the White 
House?
    Mr. Burnett. Yes.
    Senator Whitehouse. And it was a response to the 
Administrator?
    Mr. Burnett. That is my understanding of the conversations 
that the Administrator had, and that certainly is the, the 
statements that I received directly from individuals in the 
White House.
    Senator Whitehouse. Would they have made sense if the 
Administrator weren't aware of them? ?I mean, it was clearly 
implicit that this had been communicated to the Administrator, 
correct?
    Mr. Burnett. It was----
    Senator Whitehouse. If not directly, directly through 
staff?
    Mr. Burnett. It was well known and the Administrator 
certainly knew the President's policy preference for a single 
standard.
    Senator Whitehouse. Which had been communicated to him 
after he had heard the proposal to grant the partial waiver?
    Mr. Burnett. We had been working on a variety of options 
ranging from a grant to a denial. I thought that the option 
that had the most prospect of moving forward in this 
Administration was a partial grant of the waiver. We tried to 
argue that could be done in a way that was both legal, legally 
supportable and consistent with the general policy direction 
that we were receiving.
    Senator Whitehouse. But just in terms of the timing, that 
the White House response to that followed, that notification to 
the White House that was your intention? In terms of the order.
    Mr. Burnett. Well, there were multiple meetings. So I want 
to simply be cautious about the exact sequence, because there 
was back and forth. But we went forward with our plan, told the 
White House about our plan to have a partial grant of the 
waiver, and in response, we were reminded of the President's 
policy preference.
    Senator Whitehouse. Got you.
    Madam Chair, will we have a second round? I have two more 
questions I would like to ask. And I would like to allow 
Senator Sanders to proceed with his. OK, thank you.
    Senator Boxer. Senator Sanders.
    Senator Sanders. Thank you, Senator. And thank you, Senator 
Boxer, for holding this hearing, and I want to thank the 
panelists for being here.
    Senator Boxer.
    [Remarks off microphone.]
    Senator Sanders. We have a vote, we have to be out of here 
in about 10 minutes.
    Senator Boxer.
    [Remarks off microphone.]
    Senator Sanders. I want to thank the panelists. I am not 
going to ask Mr. Burnett any questions, because I think he has 
received enough questions. What he is doing today is important, 
because it only confirms, I think, what many of us have known 
for years, is that with the Bush-Cheney Administration, we have 
an administration that will go down in history as having the 
worst record that I can think of any administration in the 
history of our Country. But they have been especially bad and 
outrageous in environmental matters. And they stand uniquely 
alone. If you even compare the Bush administration to his 
father, who was a moderate on these issues, the decisions and 
actions of this Administration will cause incalculable harm for 
the future. It is going to take us many, many years, if ever, 
to recover and reverse what they have done.
    What I want to do is ask Dr. Trenberth a question. If we do 
not reverse global warming and if the planet continues to warm 
up, and if we see more drought, if we see more flooding, if we 
see the loss of agrigable land, if we see mass migrations 
because people are unable to farm or grow the food that they 
need, if we see the result, more and more illnesses develop, 
what happens? Talk a little bit about the impact of human 
health and global warming.
    Dr. Trenberth. Of course, what happens is that this doesn't 
happen everywhere all at once. Usually it happens episodically. 
So we see examples like what happened with Katrina in our 
Country, indicating that indeed a western country leading the 
world, the United States, was not up to and didn't have the 
infrastructure to deal with that kind of a disaster.
    So this year there have been major disasters in Myanmar 
(Burma) and the Philippines as a result also of hurricanes. So 
these things happen from time to time and they affect different 
areas. And you read about them in the news. But they don't 
affect everywhere all at once. The same thing tends to happen 
with droughts. The droughts move around from 1 year to the 
next. It is easy to say, well, maybe this is natural 
variability, and natural variability is playing a role. The 
thing is that we have, in fact, nowadays, global warming and 
natural variability going hand in hand.
    Another really good example was what happened in Europe in 
2003. The magnitude of the heat waves that occurred at that 
time was unprecedented there is no way that this, and in Europe 
they have records for centuries.
    Senator Sanders. How many people died? My recollection is 
that thousands of people died.
    Dr. Trenberth. Yes, over 30,000 people. The IPCC suggests 
up to about 35,000 people died in that particular heat wave. 
And you cannot account for it by natural variability, you 
cannot account for it by global warming. It is a combination of 
both. So it was an extreme natural event on top of global 
warming that led to that particular event.
    Senator Sanders. But go beyond just the severe weather 
disturbances, whether it is a prolonged heat wave or whatever. 
If you see increased drought, people are not going to be able 
to grow food, and they are going to have to migrate and so 
forth.
    Dr. Trenberth. Right.
    Senator Sanders. There are going to be more and more 
diseases developing for a variety of reasons. Can you say a few 
words on that?
    Dr. Trenberth. Yes, that is correct. There are various 
kinds of diseases and pests, like wheat rust and cotton rust 
that tend to flourish in warmer and wetter conditions. 
Ironically, we often have droughts and floods at the same time 
but in different places. Then they move around from 1 year to 
the next. Where they occur gets determined by things like the 
El Nino phenomenon or the La Nina that we have had over the 
past year.
    So these things gradually occur in different places. 
Everyone will be affected one way or the other, sooner or later 
and in different ways. The thing that has happened in the last 
30 years in particular is that it has gotten a lot warmer in 
general in Europe and Asia. In the U.S., the main thing that 
has happened is that it has gotten wetter. There is a figure in 
my testimony which shows that. That has ameliorated the drought 
that we otherwise would have had. There has been some work done 
to illustrate that. Also, it has not become as hot as it 
otherwise would have been.
    But we are extremely vulnerable to both of those things 
occurring much more in the future if the atmospheric 
circulation tends to revert to the conditions that occurred 
before about 1970. And we saw an example of that last year, for 
instance, in the Southeast with the drought, and the 
consequences of that and the arguments over water between 
States and so on. So you will see more examples of that kind of 
thing. I personally think that the biggest pressure point on 
society will actually be through water and water resources. 
That is especially true in other places around the world.
    Senator Sanders. Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Here is what we are going to do. We are going to continue 
this hearing, because I have to followup on some things that 
were said. The information we have received so far raises 
serious concerns in my mind regarding the account of events 
that has been provided to this Committee, including statements 
by Administrator Johnson. So when I come back, I want to 
further ask you, and I think it is so important, Mr. Burnett, 
the President himself, what I understand, you don't have to 
answer now, because I want you to think about it, the President 
himself wanted a single standard for automobiles. What I want 
you to think about is, that flies in the face of the law and 
the Supreme Court. So I want you to just think about that, 
because it is very, very important.
    When Senator Whitehouse comes back, Bettina, if you could 
tell him to sit right here, reopen the hearing and I will be 
right back. We stand in recess just for about five or 10 
minutes.
    [Recess.]
    Senator Whitehouse.
    [Presiding] The hearing will come to order.
    First of all, let me just express for the record my 
appreciation to Chairman Boxer for allowing me the time to vote 
and return. I would like to continue the line of questioning 
that I had for a moment.
    Mr. Burnett, you indicated in your earlier testimony that 
President made his policy preference for a single standard 
clear in a variety of conversations and a statement of 
Administration policy. Could you describe what more you know 
about those conversations and that statement? Is the statement 
a matter of public record? Is that an administrative document?
    Mr. Burnett. Yes, I believe it is.
    Senator Whitehouse. An OMB circular of some kind, something 
like that?
    Mr. Burnett. Yes. Statement of Administration policy 
generally, well, in that case were developed as the Energy 
Bill, the Energy Independence and Security Act of 2007 was 
moving through Congress. And that final document made it clear 
that there was a desire for, frankly, for clarity as to EPA's 
role and that was seen as an effort to push for a legislative 
fix, if you will, to the Clean Air Act, something that would 
legislative deny the California waiver.
    Senator Whitehouse. Was the statement of Administration 
policy developed in the context of the Energy Bill, though?
    Mr. Burnett. Yes.
    Senator Whitehouse. OK. With respect to the Cabinet 
meeting, is there any way that one could describe that Cabinet 
meeting as routine from the perspective of the Administrator of 
the Environmental Protection Agency?
    Mr. Burnett. For major policy decisions that EPA makes, we 
often would have what we call a principals meeting, which is 
the principal decisionmaker and the Cabinet level officials 
would get together and would look at the decision before the 
Administrator, and that occurred in this case.
    Senator Whitehouse. So it wasn't a full-blown Cabinet 
meeting, it was a Cabinet level meeting?
    Mr. Burnett. That is right. Cabinet level officials, the 
Administrator representing EPA.
    Senator Whitehouse. And you assisted the Administrator in 
preparing for that and you assisted him creating the agenda for 
it and so forth?
    Mr. Burnett. I both assisted the Administrator in preparing 
for it and I assisted OMB in preparing the briefing documents 
that went out to the other agencies and departments.
    Senator Whitehouse. Are you aware of any other such Cabinet 
level meetings on other issues that took place during your time 
at EPA?
    Mr. Burnett. Yes. There were at least three Cabinet level 
meetings related to the response to the Supreme Court. We had a 
meeting, the Administration had a meeting to make the policy 
decisions about the fuel economy standards and the greenhouse 
gas standards for cars and trucks, a meeting for the greenhouse 
gas standards for gasoline and other fuel for the 
transportation sector, and a Cabinet level meeting for the 
issue of public endangerment.
    Senator Whitehouse. Do you know who attended the meeting on 
the California waiver, the Cabinet level meeting?
    Mr. Burnett. I am sorry, I don't think I said that there 
was a Cabinet level meeting, at least that I am aware of, on 
the California waiver.
    Senator Whitehouse. It was on the endangerment 
recommendation?
    Mr. Burnett. Yes.
    Senator Whitehouse. OK. And do you know who attended that?
    Mr. Burnett. I know generally who attended, and certainly 
some of the individuals, as well as the offices, agencies and 
departments involved.
    Senator Whitehouse. It was the Administrator and Deputy 
Administrator Peacock on behalf of the EPA?
    Mr. Burnett. Yes, and Roger Martella, the General Counsel 
also attended that meeting for EPA.
    Senator Whitehouse. Without going into individual names, 
what other Cabinet agencies were represented, do you know?
    Mr. Burnett. I believe that CEQ, Counsel on Environmental 
Quality, the Office of Management and Budget, I believe the 
CEA, I believe that the Office of the Science Advisor, the 
Office of the Vice President, the Chief of Staff's Office to 
the President, I believe the Department of Transportation, 
Department of Energy, Department of Agriculture and that is 
neither necessarily a comprehensive list nor--I may be 
incorrect about certain offices. But those were the offices 
that were generally involved in the policy process, and I 
believe that all of those offices were at the Cabinet level 
meeting in November 2007.
    Senator Whitehouse. Department of Energy? Department of 
Transportation?
    Mr. Burnett. Yes. Yes.
    Senator Whitehouse. OK. And you indicated that the result 
coming out of that Cabinet level meeting was that you should 
prepare to go ahead with a finding that the public was in fact 
endangered?
    Mr. Burnett. Yes.
    Senator Whitehouse. Do you have any information that could 
help explain how that determination could have gotten out of 
that group with the Chief of Staff to the President, the Office 
of the Vice President and OMB all represented when they seem to 
be the entities opposed to at least the ramifications of that 
conclusion, if not that conclusion itself?
    Mr. Burnett. Things changed between November 2007 and 
December 2007. The primary thing that changed is that the 
Energy Bill was moving its way through Congress and the 
prospects for that bill being signed into law were looking 
better in early December than in November. And ultimately, one 
of the key reasons that the Administration was interested in 
moving forward with a response to the Supreme Court was to help 
accomplish the President's objective of reducing gas 
consumption by 20 percent over 10 years, the so-called 20 in 10 
plan.
    After it looked like the President could achieve that 
policy objective without responding to the Supreme Court, then 
effectively a lot of the support for responding to 
Massachusetts v. EPA evaporated. EPA still argued that it was 
in the best interests of the Country to move forward with a 
response, because in fact the science had not changed and the 
law had not changed. And the public was still endangered. 
Therefore, we were required to move forward sooner or later. 
The decision was simply to delay that response until the next 
Administration.
    Senator Whitehouse. And going back to the waiver 
determination, as I recall the timing, that was, the 
Administrator's decision, without any of the required 
background or support, was announced in a sort of explanation 
to follow the same day, if I am not mistaken, that the Energy 
Bill was signed into law, if I have my timing right.
    Mr. Burnett. Yes, you are correct.
    Senator Whitehouse. How did that timing happen to occur, to 
your knowledge?
    Mr. Burnett. On Monday December 17th, the Administrator 
came into my office and told me of his intent to deny the 
California waiver. I immediately asked him whether we didn't 
want to continue looking at the option of a partial grant, 
because even though the Energy Bill did look good, well, at 
that point it was clear that it was going to be passed and 
signed into law, the Energy Bill was not going to change the 
three criteria of the Clean Air Act, the three legal criteria 
that we had to evaluate. Therefore, certainly the best legal 
option was to grant or partially grant the waiver.
    However, the Administrator made clear that he had made up 
his mind, and we went to work drafting a letter to Governor 
Schwarzenegger. That letter was in the works over the course of 
Monday and Tuesday, the 17th and 18th. President Bush signed 
into law the Energy Independence and Security Act of 2007 on 
the morning of December 19th. It was made known to us by I 
think at least two separate news organizations, that they had 
information that the Administrator was planning on denying the 
waiver and that they were going to run a story the next 
morning.
    So the decision was made to release the letter to the 
Governor, announcing the denial of the California waiver, at 
least a day or two earlier than we had anticipated. The plan, 
frankly, was to release that letter either later in that week, 
so as to not, to not be in the same at least day news cycle of 
the President's signing of the Energy Bill. But given the 
information that the news organizations had, the decision was 
made to release that finding, I am sorry, to release the letter 
to the Governor late in the day Wednesday December 19th.
    Senator Whitehouse. Going backward, there was the release 
on December 19th, the Administrator told you what his decision 
was on December 17th. When had, if you recall the date, when 
had you notified or when had the Department or Environmental 
Protection Agency notified the White House of its 
recommendation to grant a partial waiver? Do you remember what 
date that was?
    Mr. Burnett. I believe that we continued throughout the 
early December to explain the case for a partial grant. I 
believe that it was early December when the Administrator made 
his plan known. Of course, that plan ultimately was not 
followed.
    Senator Whitehouse. And in between that, the White House 
response came back that the President desired there to be the 
single standard?
    Mr. Burnett. Yes.
    Senator Whitehouse. OK. Dr. Trenberth, I am a little bit at 
a disadvantage, because both you and Dr. Spencer are scientists 
and I am not. But I noticed you reacting from time to time to 
Dr. Spencer's testimony. I was wondering if there was anything 
that you would care to say regarding his testimony that would 
help a non-scientist understand or assess it properly and give 
it its appropriate context in the global warming/climate change 
discussion.
    Dr. Trenberth. Thank you for the opportunity to respond.
    First, the IPCC has extensively studied natural 
variability, and tried to assess what the natural variability 
would be without any what we call external influences on the 
climate. So that includes the sun and things like volcanoes, 
which are natural sources of variations. And we do that through 
paleoclimate and we do that through models. And in fact, it is 
an important part of the validation of climate models that they 
should be able to replicate the record in the past and the 
natural variability in the past.
    The second point I would make is that natural variability 
also has a cause. It may be the redistribution of heat within 
the ocean, but it is not magic, it doesn't come out of nowhere. 
We have the ability nowadays to track that. For instance, we 
can track what is happening on the sun, and we know that the 
sun is not responsible for the changes that have occurred. We 
also know that it is not clouds.
    Einstein said that we should make things as simple as 
possible, but not simpler. I think Roy's model is in the latter 
category. His simple model is simply fatally flawed, in my 
view. There are two figures in his written testimony, Figure 3A 
and 3B, and just very briefly, the radiation that is contrived 
there is about a factor of ten too large, the ocean mix layer 
that he uses is about a factor of ten too large. And he starts 
the model off with an artificial starting point.
    So unlike the IPCC models that have been scrutinized by 
hundreds of scientists and many papers have been written about 
them, analyzing them and diagnosing what they are doing, Roy's 
model has no standing whatsoever. So I don't think I would go 
along with the statements that he has made.
    At the same time, clouds are an issue. We need to do clouds 
better. But my group has also been intensively studying the so-
called sensitivity of the climate system, which is how much the 
climate system would change in response to a doubling of carbon 
dioxide. We use the annual cycle. And what we find is that the 
climate models that are somewhat more sensitive are the ones 
that replicate the changes from summer to winter better than 
the other models. So we come to quite the other conclusion. 
That is work under development.
    So I don't think you should accept Roy's written testimony 
as gospel at this point.
    Senator Whitehouse. Let me ask a final question, if I may, 
Madam Chair.
    Senator Boxer. Please.
    Senator Whitehouse. Now I am really going to hazard myself 
by y going into potentially scientific areas as again a non-
scientist. But it strikes me that a lot of things in nature and 
in science can be described by the famous bell curve, and 
indeed, that scientific data, if you were to plot it on an x 
and y axis in which the one axis was the severity of the threat 
and the other axis was the numerosity or consensus of the 
opinion, you would end up plotting a curve in which some people 
at the one low end of the curve though that this was really, 
really dangerous, far more than perhaps the IPCC as a consensus 
judgment might admit. And there are other people at the other 
end of the bell curve saying that it is actually very low risk, 
but at both ends it is a relatively small number, and the 
consensus is sort of right down the middle of where the IPCC 
conclusions lie.
    Do you believe that is, as far as you know, do you believe 
that is an accurate way to look at or try to understand the 
varying scientific opinion and its relative weight on this 
question?
    Dr. Trenberth. Well, there are certainly some scientists 
who take much more extreme views than I do as to how seriously 
the planet is in peril. And there are some who are--and the 
IPCC includes scientists from all parts of the political 
spectrum, I might say--and it includes many skeptics who are 
involved in the IPCC process.
    What I have found, though, and I have given about 40 public 
lectures over the last couple of years, in dealing with people, 
and some of these are very technical people, like 700 
engineers, IEEE engineers, is that they really appreciate the 
information on which the IPCC is based. Once they become 
adequately informed, they become convinced indeed that there is 
a real problem here. It is the ones that in general are not 
well-informed about the basic information, and the complexity 
of the climate system doesn't make that an easy process, those 
are the ones who are more inclined to be skeptical.
    Senator Whitehouse. Here is my concern. It is sort of a 
political and practical concern, to a degree. I see this as 
being an environment in which we are hearing a great deal from 
people who are like the IPCC and like yourself, sort of right 
down the middle, right at the high point of the bell curve with 
respect to the concerns about the severity of what we have to 
look forward to from climate change.
    Then we hear from people like Dr. Spencer, who have a 
different view, that it is going to be much more moderate and 
not going to be really a problem and only 1 degree increase by 
2100 and so forth. And in Washington, which is a city built 
around compromise, there may be a tendency to sort of hedge 
between those two views. I think that will build in a bias 
toward inaction that would be very dangerous if we didn't 
reflect that for every Dr. Spencer, there is somebody on the 
other side of the bell curve whose views are far more 
profoundly concerned about the threat of climate change than 
those of the IPCC and those of yourself.
    Again, I am asking for your comment. Is that a fair way to 
look at the lay of the land on this?
    Dr. Trenberth. In that regard, the IPCC is a very open 
process. Anyone can be involved. It is the consensus view as to 
what is happening. There are a few people, and Roy is among 
them, who dissent from that view. But as Senator Klobuchar was 
saying, there are a lot of facts and hard evidence and good 
information that can be brought to bear on this problem. When 
you do that, some of the things that Roy has been saying can be 
simply disproved.
    Senator Whitehouse. My time has more than expired. I am 
very, very grateful to the Chair for her patience and courtesy. 
I yield.
    Senator Boxer.
    [presiding]. It is so important. I hope, Senator, if you 
could possibly stay, because I think we need to talk after this 
is over.
    When I left, Mr. Burnett, I said that I was going to ask 
you, and I want to say this, I want to sort of tell a story. If 
there is anything in that story that I am saying wrong, I want 
you to correct me, please. And this is the story.
    The story is that under the Clean Air Act, and it is in 
this book, under a section called Waiver, it says ``The 
Administrator shall, after notice and opportunity, waive 
application of this section to any State which has adopted 
standards for the control of emissions from new motor vehicles 
or new motor vehicle engines,'' and it goes on and on, that if 
those standards are at least as protective of the public 
health, and there are only two reasons given, essentially, for 
denying such a waiver. The first is the determination of the 
State is arbitrary and capricious, and the second, B, is, I 
guess there is three. Such State does not need such State 
standard to meet compelling and extraordinary conditions, or 
such State standards and accompanying enforcement procedures 
are not consistent with Section 7521 of this title.
    So this is the Clean Air Act. And here is my story. 
California and about 19 other States evidenced interest in 
going along with this, asked for such a waiver, because they 
are concerned about global warming, because they want to get 
started doing more than the Federal Government, just get going 
to cut down on global warming emissions. And that after many 
meetings, Mr. Burnett, and make sure that I am right when I say 
this, many meetings of the scientists at the EPA, of the people 
like yourself, and even meetings, as I understand it, with 
others, Cabinet people and others, and correct me if I am wrong 
on that, EPA decided that it would make sense to grant a 
partial waiver to the State and the partial has to do with the 
number of years, as I understand it, that it would be in 
effect. So far, is that a correct recitation?
    Mr. Burnett. I want to be careful about----
    Senator Boxer. Go ahead.
    Mr. Burnett [continuing].--the word decided. Because it is 
my understanding under the law that ultimately the 
Administrator doesn't make a decision until he puts pen to 
paper. But it is true that we had a plan, and the Administrator 
had a plan to grant----
    Senator Boxer. Well, let me put it this way. The EPA 
decided to recommend to the Administration a partial waiver. Is 
that a better way to say it? They decided to recommend this 
partial waiver?
    Mr. Burnett. The Administrator had a plan to partially 
grant the waiver, provided that the Clean Air Act was not 
enacted by Congress.
    Senator Boxer. He planned to do it, and he was just going 
to let the Administration know about it, is that correct?
    Mr. Burnett. Yes, he----
    Senator Boxer. About his decision? Or his plan?
    Mr. Burnett. Yes, that is right. He----
    Senator Boxer. So I won't use the word decision. This is 
why I am trying to tell the story in exactly the right way. He 
had a plan to sign a partial waiver. And he went over to the 
White House to inform them of this decision, of this plan, of 
this plan, that you were intimately involved in getting him 
prepared for this meeting, and he went over there and this is 
what I am trying to get now.
    When he came back, he let people like yourself know, I 
assume there were others, that the President, the President 
wanted a single standard for, is it for fuel economy or for 
controlling greenhouse gas emissions from cars? How would I say 
it best?
    Mr. Burnett. The President had a policy preference for a 
single standard for automobiles.
    Senator Boxer. OK, a single standard. And so my question to 
you is, is it your understanding that the President understood 
this law? Did he make reference to it? Did he say, despite the 
law or anything like that, despite the law or notwithstanding 
the law?
    Mr. Burnett. I cannot personally speak about conversations 
at that level.
    Senator Boxer. OK.
    Mr. Burnett. What I do know is that I was involved as part 
of the process, explaining to a number of officials at the 
White House the three criteria under the Clean Air Act.
    Senator Boxer. Right, that I read. So to the best of your 
understanding, Mr. Johnson understood clearly the Clean Air 
Act, when he went over to the White House?
    Mr. Burnett. This issue is one of the most important issues 
that was facing EPA. It received very high level attention, 
many meetings with the Administrator and many meetings with 
senior officials at the White House, yes. Everyone----
    Senator Boxer. OK, let me put it this way. Is there any 
information that you have when Mr. Johnson reported back to you 
about the President didn't want to follow this plan, was there 
any doubt in your mind that the President didn't understand the 
law? I mean, just forget conversations. Was it pretty clear 
that the President and his folks had understood what the law 
required and they chose the single standard?
    Mr. Burnett. We did our best to ensure that all policy 
officials involved in this decision were apprised and informed 
of the law and EPA's assessment that all three criteria were, 
that the, clearly, the most supportable case under the law is 
that all three criteria had been met.
    Senator Boxer. OK. So to finish my story, this issue had 
gotten a tremendous amount, had generated a tremendous amount 
of interest. It was certainly very important in this Committee, 
we were talking about it a lot with Mr. Johnson. And that if I 
were to say to my constituents that the professionals in the 
EPA and even Mr. Johnson himself had a plan to grant a partial 
waiver, they presented that plan and despite what the law 
requires, the President chose to ignore that plan and said he 
didn't want to grant the waiver. Is that a layman's way of 
putting it?
    Mr. Burnett. Again, I want to be very careful about the 
words that I use.
    Senator Boxer. Well, these are my words, not yours. These 
are my words. If I were to say to my constituents, from what I 
have gathered, very clearly, because I don't have the documents 
I want. That is another problem. We can't get the documents we 
want on this. We have asked for e-mails, we have asked for--so 
you are the only thing we have standing up for what happened.
    So let me say again, if I were to say to my constituents 
that Mr. Johnson and his key team and the professionals at EPA 
felt California had made their case and furthermore, if there 
was a lawsuit, the probability was that they would prevail, and 
yet and still, knowing all this, and despite the fact that 
there is a Clean Air Act which lays out the case, the President 
chose not to grant the waiver? That is my words. If I were 
saying that to my constituents, how would you correct me?
    Mr. Burnett. The policy preference of the President led to 
the denial of California's waiver request, because granting the 
waiver or a partial grant of the waiver would have led to two 
standards, not one, as the President desired.
    Senator Boxer. Right. And isn't it true that in the Clean 
Air Act, it is very clear that there have been 50 waivers 
granted already. California has never been denied, the other 
States have never been denied. This wasn't anything new. This 
was the first outright denial, is that correct?
    Mr. Burnett. That is correct. It is the most clear reading 
of the law that California should have and should still receive 
its waiver request, despite the policy preferences of the 
President.
    Senator Boxer. OK. I want to submit to the record, and I 
think Senator Whitehouse would be very interested in this, 
first of all, the opinion of the Court which clearly says, the 
fact that DOT, that is the Department of Transportation's 
mandate to promote energy efficiency by setting mileage 
standards may overlap with EPA's Environmental 
responsibilities, in no way licenses EPA to shirk its duty to 
protect the public health and welfare.
    I am not asking Mr. Burnett or anybody else anything. I am 
saying here, as a United States Senator who is sworn to uphold 
the laws, I just want to say to my colleague, the Supreme Court 
said, no matter what standard is set by DOT, EPA must not shirk 
its responsibilities to the public health and welfare. Despite 
this, and despite everything that the good professionals and 
scientists have done, this President, I believe, made a 
decision that flies in the face of the Supreme Court case. So I 
believe it is clearly unlawful. Clearly unlawful. And I think 
the importance of having Mr. Burnett here is to get the behind 
the scenes before this bad decision was made by this President, 
this what I call unlawful decision was made by this President. 
That is my opinion, that he was strongly advised not to do it.
    And the reason I am so grateful to you, Mr. Burnett, is I 
can't tell you how hard it has been for us to connect the dots. 
We gathered certain things happened, because we got Mr. 
Johnson's calendar, and we saw the day he went over to the 
White House. We tried to piece it together, it looked to us 
like the EPA had told him to go forward, we had some 
information on that, but it wasn't complete. You are helping us 
connect the dots. I know it is very difficult for you. And I 
know you are cautious in every word you say and you should be 
and you have been. And the record will certainly show that.
    What you have helped us to do is to fill out the picture. I 
just have----
    Mr. Burnett. Madam Chair.
    Senator Boxer. Yes.
    Mr. Burnett. If I may, I have left the agency in early 
June, and plan on continuing to work on the same issues. I 
think that there is a profound challenge for the next 
Administration in two regards that flow from decisions this 
Administration has made. First, I think it is clear that either 
the courts or the next Administration will grant California the 
waiver. However, this temporary denial of the waiver creates 
complications, both for California, the other States that have 
chosen to follow California's lead, and ironically for the very 
industry that is directly affected, the automobile industry. 
Because the denial will eliminate the phase-in period of the 
program and overall, will make a program harder to meet, not 
easier to meet. So it is really a disservice not only to the 
environment but actually to the industry.
    And the challenge will be for the next Administration to 
try to sort out how to deal with the ramifications of the 
denial and move forward with a grant in a way that works as 
best as possible for all parties involved.
    The other challenge, of course, is a response to the 
Supreme Court. This Administration has simply decided to delay 
that response. But it is going to be a complicated, difficult 
task to use the Clean Air Act. But that is what the law 
requires. And it is my personal judgment that we are best 
served starting now to begin developing a path forward so that 
we can best use the Clean Air Act and avoid the parade of 
horribles that other people have suggested will come from the 
Clean Air Act. Responsible use of the law can be done to 
channel regulation in a way to avoid that scenario.
    Senator Boxer. Well, thank you so much for getting us back 
to why we are here. We want to be able to move forward. And as 
we all know, every day we waste is a day that we can't make up 
for, because that carbon stays out there. So let me just, since 
you brought up the endangerment finding, essentially, I want to 
close on this and then read a statement. I will ask you a 
question, then I will turn to--we have time--turn to Senator 
Whitehouse.
    Now, one of the things, as you know, everybody, we are 
going to have a meeting here on Thursday where we are 
attempting to get the e-mail that contained the endangerment 
finding, and you were involved in preparing that e-mail, is 
that correct?
    Mr. Burnett. Yes, that is correct, I was involved both in 
preparing the endangerment finding itself and I was the 
individual who sent the e-mail for formal OMB review.
    Senator Boxer. Right. It is my understanding that if that 
e-mail had been opened by the Office of Management and Budget 
over there at the White House, it would have triggered an 
obligation to reveal its contents to the public. Is that your 
understanding?
    Mr. Burnett. It is my understanding under the Clean Air 
Act, I believe it is Section 307(d) and the Executive Order 
12866, which was a President Clinton Executive Order, but has 
been reaffirmed by this President, that there are public 
transparency provisions that require drafts of regulations 
submitted for review to OMB to be made public, so that the 
public can understand any differences between the draft 
submitted for review and the final regulation released.
    It is my understanding that by submitting this finding for 
formal review that would have triggered the public transparency 
provisions of both the law and the Executive Order, and that 
the e-mail and the contents of the e-mail, the finding of 
public endangerment, would be made public upon the 
Administrator's signature of a document for the Federal 
Register notice.
    Senator Boxer. Well, me speaking here, the fact is, all 
along we have seen a pattern and a practice of this 
Administration to cover up any finding that deals with the 
impacts of unchecked global warming on our people. We saw it 
with the CDC testimony and I wanted to thank you for letting 
the public know about that. You were asked personally to redact 
that CDC testimony, you said, in the press you wouldn't do it. 
And it wound up that it was done--where was it done, in the 
OMB? We are not exactly sure who redacted it. Do you know who 
redacted those six pages of Dr. Gerberding's testimony?
    Mr. Burnett. I do not. I can only speak for my actions.
    Senator Boxer. It was not the EPA. So what happened, and 
that is the one where Dana Perrino said it was, what was his 
name? Dr. Marburger, and Dr. Marburger said he didn't do it. So 
it is just like, did the butler do it? We don't know.
    But the bottom line is--yes, in the parlor with the 
candlestick--what we need is a candle to light to put a little 
light on the subject. We can't find out this information. So 
your e-mail that you sent was never opened, this is me 
speaking, I believe in part to keep what you found from the 
public. I know you have said you don't have a copy of it. So 
Thursday, we are going to meet here and we are going to try and 
subpoena that endangerment finding, that document.
    Now, we need two of our Republican friends to show up, and 
we need four, we need eight Senators, but only two Republicans? 
Oh, eight Senators and two Republicans, eight Democratic 
Senators and two Republican Senators need to show up. Then I 
guess we need a majority of those present and voting to 
subpoena this document. This isn't easy, and I have avoided 
this, because I know on the House side it is a little easier 
for the majority. But they can't get the document. The only 
thing they were allowed to do, as I understand it, is read it, 
not take any notes. One person. And I am not going there. 
Nobody made me queen of this Committee. If we can't get this 
for everybody to see, that is not an offer I take. It has to be 
made public. This is about public endangerment.
    So I am going to call on Senator Whitehouse to ask a couple 
more questions, then I have a closing statement. And I so 
appreciate your all being here.
    Senator, please go ahead.
    Senator Whitehouse. Just one very quick question. Mr. 
Burnett, do the procedures of the Clean Air Act relative to 
granting or denial of waivers anywhere provide for a policy 
preference of the President to enter into that process?
    Mr. Burnett. First, I should say, be clear, I am not a 
lawyer.
    Senator Whitehouse. It is OK, I am not a scientist, and I 
have been messing around with that.
    Mr. Burnett. I think that your question does involve at 
least a matter of administrative law. It is----
    Senator Whitehouse. Let me ask it to you in a non-legal 
way. Let me ask it to you just in a factual way, then. In the 
course of preparing Administrator Johnson for this, in the 
course of preparing the decision that was made to recommend 
that a partial waiver be granted, do you recall any discussion 
about how the process required at some point evaluation of a 
Presidential preference, or, sorry, a policy preference of the 
President?
    Mr. Burnett. I will simply observe that in the final 
decision document, I don't believe that there is any reference 
to a policy preference as a legal justification for the 
decision made.
    Senator Whitehouse. Fair enough. I appreciate it.
    Senator Boxer. OK. The information we have obtained through 
the investigation in this Committee raises serious questions 
regarding the account of events provided to this Committee, 
including statements by Administrator Johnson. This Committee 
will pursue this matter further with all the resources at its 
disposal. Along with Senator Whitehouse, who has taken the lead 
on this, I will participate in a full Committee hearing in the 
Judiciary Committee convened by Chairman Leahy on the 
extraordinary use of privilege and obstruction of oversight in 
the Congress on global warming issues.
    This Thursday, we will convene, as I said, a business 
meeting to consider a subpoena for the endangerment finding Mr. 
Burnett spoke of today. The White House has not agreed to 
provide this critical EPA document, clearly subjected to 
oversight of this Committee. Our Committee rules do require 
that we have Republican participation in the meeting, and we 
are so hopeful that they will be here. Because it isn't a 
question of how we view global warming, it is a question of 
information, frankly, that has been developed by professionals 
at the EPA. We are paying the salaries of those people, the 
taxpayers are. The people have a right to see what good, caring 
people like Mr. Burnett have put on paper, have put in an e-
mail to lay out a strategy as to first of all, are we 
endangered? They said yes. How? They explain it. And very 
important, I note to Mr. Burnett and others, who serve so 
courageously over at EPA, and Mr. Burnett had to take his stand 
by leaving, but there are many others there, they want us to do 
something.
    And in this document, we will learn what we can do under 
the Clean Air Act. And as Mr. Burnett said, you can use it 
responsibly, you could use it in not such a responsible way. I 
am very anxious to see that document. I need to see the 
document to do my job. My colleagues need to see the document 
to do their job.
    So all I want to say to all of you here today who came to 
testify, that we really so appreciate your valuable time. We 
are going to get to the truth. The most important thing is, 
when we get to the truth, truth is power. And we are going to 
start acting in a responsible way to address a critical issue 
that is coming at us very hard and very fast. If we owe nothing 
else to our kids and grandkids, it is to take action. And you 
are going to help us do that.
    So I thank you very much. We stand adjourned.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Madame Chairman, I am very disappointed to see that this 
Committee is once again beginning its deliberations on global 
warming in the wrong manner. Rather than focusing on 
substantive issues that would be helpful to the debate on 
global warming legislation, this Committee is choosing to 
engage in more political theater with a predetermined outcome. 
The rushed process and the complete lack of understanding of 
the policy implications of the Lieberman Warner doomed it from 
the start. Opposition to the bill was not limited to 
Republicans, as nearly 30 percent of Senate Democrats refused 
to support the bill.
    If this Committee were serious in undertaking efforts to 
draft global warming policy rather than score political points, 
it should be focusing its efforts in a much more methodical and 
deliberative manner that acknowledges the complexity of the 
issues surrounding any mandatory emission reduction policy. 
Regardless of my own position on this topic, the Committee 
should be exploring issues to help build a record on how to 
draft a cap and trade system, the level of technology currently 
available to achieve reductions, how to allocate credits, how 
to design an auction system, how to create a domestic offset 
program, what the international impacts will be on trade and 
particularly exports, how to effectively contain costs through 
a transparent mechanism, and the list could go on.
    Instead we are here to politicize the internal deliberative 
process of the Administration under the guise of an update on 
the science of global warming hearing. While I welcome the 
opportunity to discuss the latest science on global warming, 
doing it in this heavily political setting with a predetermined 
outcome focused on internal deliberations of the Executive is 
not the right venue for such discussion. It is my view that 
regardless of Administration, the President acting through the 
entire executive branch is fully entitled to express his policy 
judgments to the EPA Administrator, and to expect his 
subordinate to carry out the judgment of what the law requires 
and permits. It can be argued that the ``unitary Executive 
concept'' promotes more effective rulemaking by bringing a 
broader perspective to bear on important regulatory decisions. 
It also enhances democratic accountability for regulatory 
decisionmaking by pinning responsibility on the President to 
answer to the public for the regulatory actions taken by his 
Administration. Therefore, I consider this debate over 
censorship within the Administration to be a non issue. All 
administrations edit testimony and all documents go through 
interagency review before any final agency action. I cannot 
support any investigations that could have a chilling effect 
within the deliberative process of the Administration, and 
cause future career and political employees from refraining 
from an open and honest dialog.
    Regarding the real subject of the hearing, it is no secret 
what my views on the science of man-made global warming are. I 
welcome Dr. Roy Spencer, who will be updating the Committee on 
his recent theoretical and observational evidence that climate 
sensitivity has been overestimated, as well as giving his 
perspective on White House involvement in the reporting of 
agency employee's work.
    I am also happy to report that there are several updates 
that are worth noting for purposes of the record for this 
hearing. Numerous peer-reviewed studies, analyses and prominent 
scientists continue to speak out to refute many conclusions of 
the IPCC. I have documented in the past how the consensus on 
the ``science is settled'' debate has been challenged, and in 
many cases, completely refuted, from the hockey stick, to the 
Stern Review, to the IPCC backtracking on conclusive physical 
links between global warming and observed hurricane frequency 
and intensity.
    Just this past week, a major new study was published in the 
peer-reviewed journal Climate Dynamics that finds worldwide 
land warming has occurred largely in response' to oceans, and 
not carbon dioxide. There have also been recent challenges by 
Russian scientists to the very idea that carbon dioxide is 
driving Earth's temperature and a report from India challenging 
the so-called ``consensus.'' The Physics and Society Forum, a 
unit within the American Physical Society, published a new 
paper refuting the IPCC conclusions where the editor conceded 
there is a `considerable presence' of global warming skeptics 
within the scientific community.
    More and more prominent scientists continue to speak out 
and dissent from man made global warming. In June, the Nobel 
Prize Winner for Physics, Ivar Giaever, declared himself a 
``skeptic'' and said ``global warming has become a new 
religion.'' Atmospheric Scientist Dr. Joanna Simpson, the first 
woman in the world to receive a PhD in meteorology also 
dissented in 2008. ``As a scientist I remain skeptical'' of 
climate fears, Dr. Simpson said in February of this year. In 
June, a top U.N. IPCC Japanese Scientist, Dr. Kiminori Itoh, 
turned on the IPCC and called man-made global warming fears the 
``worst scientific scandal in the history.'' In addition, more 
evidence of challenges to global warming occurred when two top 
hurricane scientists announced they were reconsidering their 
views on global warming and hurricanes.
    As the normal scientific process continues to evolve and 
models continue to improve, there have many more instances 
documented that are positive developments, which should be 
embraced, rather than ridiculed or immediately attacked by the 
media or policymakers. It is my hope that as more and more of 
these researchers speak out, scientific objectivity and 
integrity can be restored to the field of global warming 
research.
  

                                  <all>
</pre></body></html>
